<html>
<title> - PROTECTING HOMELAND SECURITY; A STATUS REPORT ON INTEROPERABILITY BETWEEN PUBLIC SAFETY COMMUNICATIONS SYSTEMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   PROTECTING HOMELAND SECURITY; A STATUS REPORT ON INTEROPERABILITY 
              BETWEEN PUBLIC SAFETY COMMUNICATIONS SYSTEMS

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2004

                               __________

                           Serial No. 108-98

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-444                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                 Ranking Member
  Vice Chairman                      ALBERT R. WYNN, Maryland
PAUL E. GILLMOR, Ohio                KAREN McCARTHY, Missouri
CHRISTOPHER COX, California          MICHAEL F. DOYLE, Pennsylvania
NATHAN DEAL, Georgia                 JIM DAVIS, Florida
ED WHITFIELD, Kentucky               CHARLES A. GONZALEZ, Texas
BARBARA CUBIN, Wyoming               RICK BOUCHER, Virginia
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
HEATHER WILSON, New Mexico           BART GORDON, Tennessee
CHARLES W. ``CHIP'' PICKERING,       PETER DEUTSCH, Florida
Mississippi                          BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              ANNA G. ESHOO, California
STEVE BUYER, Indiana                 BART STUPAK, Michigan
CHARLES F. BASS, New Hampshire       ELIOT L. ENGEL, New York
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)
?



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Boyd, David G., Deputy Director, Office of Systems 
      Engineering and Development, Department of Homeland 
      Security...................................................     6
    Grube, Gary, Corporate Vice President and CTO, Commercial, 
      Government and Industrial Solutions, Motorola Inc..........    13
    LeGrande, Robert, Deputy Chief Technology Officer, Office of 
      the Chief Technology Officer, District of Coumbia..........    21
    Muleta, John B., Bureau Chief, Wireless Telecommunications, 
      Federal Communications Commission..........................    32

                                 (iii)

  

 
   PROTECTING HOMELAND SECURITY; A STATUS REPORT ON INTEROPERABILITY 
              BETWEEN PUBLIC SAFETY COMMUNICATIONS SYSTEMS

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:39 p.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Gillmor, Cox, 
Shimkus, Fossella, Bass, Terry, Barton (ex officio), Wynn, 
McCarthy, Stupak, and Engel.
    Staff present: Will Nordwind, majority counsel and policy 
coordinator; Howard Waltzman, majority counsel; William Carty, 
legislative clerk; and Peter Filon, minority counsel.
    Mr. Upton. Must be 1:30. Good afternoon. You might say that 
I know that there are a number of subcommittees this afternoon, 
and I also know that late yesterday we were notified that 
Secretary Powell is going to be up briefing members on the 
situation in Iraq in a few minutes, so I would think that a 
number of members will be torn when it comes to where they are 
going to appear. We are in session as well with votes expected 
in the not too distant future as well.
    But good afternoon. Today's hearing is entitled, 
``Protecting Homeland Security: A Status Report on 
Interoperability Between the Public Safety Communications 
System,'' and it represents this subcommittee's continuing 
effort to examine matters related to homeland security within 
its jurisdiction.
    Sadly, we live in dangerous times. Since 9/11, our Nation 
has tried to learn from the bitter events of the past and 
better prepare to respond during the next crisis, whether it 
is, God forbid, another terrorist attack, natural disaster, a 
criminal act or something like the blackouts of last summer.
    In all such events, it is our Nation's first responders who 
answer the call of duty. As citizens flee and evacuate to 
protect themselves, our Nation's first responders are running 
the opposite direction, usually into harm's way. Nowhere was 
this selfless service more self-evident than in Ground Zero on 
9/11. To paraphrase Admiral Nimitz on that day, ``Our Nation's 
first responders showed us that uncommon valor was a common 
virtue.'' But I would submit that what we citizens consider 
uncommon valor, our Nation's first responders humbly consider 
to be just doing their jobs.
    But in order to better equip them to do their jobs, our 
Nation's first responders need to be able to communicate on 
their radios with one another, not only in terms of fire, 
police, EMS within a jurisdiction but also amongst local, State 
and Federal jurisdiction. However, achieving interoperability 
throughout our Nation has proved to a monumental and 
multifaceted challenge.
    Today, we will hear about some of those challenges are 
being confronted and the status of progress being made 
throughout our Nation. I am particularly pleased with the 
leadership demonstrated by the FCC, Department of Homeland 
Security, as they work with stakeholders at all levels of the 
government and communities around the country to achieve 
interoperability. As we will hear today from some of our 
witnesses, one critically important challenge is to ensure that 
public safety has the spectrum that it needs in bands which are 
well suited for interoperability.
    Back in 1997, Congress directed 24 megahertz for spectrum 
in the upper 700 megahertz to be allocated to public safety. 
However, the spectrum is encumbered by broadcasters and will be 
until the transition to digital TV is complete. That is why 
this subcommittee has spent an enormous amount of time working 
to ensure the expeditious completion of the digital TV 
transition.
    Several weeks ago, this subcommittee examined a proposal by 
the FCC's Media Bureau which would, in effect, provide a clear 
path to the completion of the transition. There are many sound 
policy reasons to pursue that plan, not the least of which is 
getting public safety the spectrum that it needs to achieve 
interoperability. As such, this subcommittee will vigorously 
continue its work to advance the digital TV transition in the 
months to come.
    So today I look forward to hearing from our witnesses about 
how our Nation is progressing toward interoperability and 
without a doubt interoperability is a critical necessity for 
our Nation's first responders as they help protect our homeland 
security.
    I would yield to my colleague, the gentleman from 
California, Mr. Cox, for an opening statement.
    Mr. Cox. Thank you very much, Mr. Chairman. These are very 
important hearings. As you point out, the terrorist attacks on 
September 11, 2001 and everything that we have been facing 
since demonstrates on a continuing basis the vital need for 
interoperable communications among our first responders.
    On the Homeland Security Committee, which I chair--is this 
mike a problem? This opening statement is just electric.
    Is that the sound of one or two hands clapping? All right. 
On the Homeland Security Committee, which I chair, we have been 
working to get this problem of interoperable communications 
solved, but the truth is the jurisdiction to do that in the 
most effective way lies with this committee, the Energy and 
Commerce Committee, and that makes the testimony that our 
witnesses are going to present today of special importance.
    From the first day in March 2003 that it was in operation, 
the Department of Homeland Security took the lead in managing 
Project SAFECOM, a Federal program established by President 
Bush in 2001 to help local, State and Federal agencies improve 
emergency response through interoperable wireless 
communications.
    The good news is that DHS will contribute $21 million to 
this joint effort in fiscal 2005. That is a near doubling of 
the current funding level. And based on the President's 
proposed budget, other agencies, including the Departments of 
Defense, Energy and HHS, as well as the Department of Justice, 
will contribute an additional $10 million to this joint effort.
    Since the creation of SAFECOM, and particularly in the last 
year, under DHS leadership, we have seen real progress in this 
area, as Dr. Boyd will describe in detail. The department has 
developed guidance for public safety interoperability equipment 
grants, and in April 2004, it established the first ever set of 
interoperability requirements. These will help our Nation's 
first responder community in determining their interoperability 
needs.
    The Secretary also is establishing a separate office within 
the S&T directorate to manage and oversee issues relating to 
interoperability and compatibility, including Project SAFECOM. 
Most important, the department recently announced a short-term 
incident level interoperable communications strategy to tackle 
interoperability problems in 10 of America's highest risk 
cities.
    At relatively low cost, first responders will be able to 
interact by voice with each other regardless of frequency or 
mode. They will use a patching or a bridging network set up to 
manage the specific incident. This will ensure that we have an 
extra layer of interoperability protection now while we 
continue to work toward resolving the technical and cost issues 
relating to the more long-term solutions.
    Since 9/11, this Congress and this administration have made 
billions of dollars available to State and local governments to 
purchase interoperable communications through our terrorism 
preparedness grant programs at DHS and at the Department of 
Justice. The technical issues and the lack of standards have 
prevented quick acquisition of such technology by the first 
responder community.
    I am pleased that the Department of Homeland Security is 
moving aggressively to address both the short-term needs of our 
high-risk areas and, in conjunction with other Federal 
agencies, the long-term challenges of technology development, 
standard setting and spectrum limitations.
    And that takes us to the central issue of spectrum. I would 
like to commend Chairman Barton for his outstanding recent 
comments affirming the need to reclaim the analog TV spectrum 
by the end of 2006. These multibillion dollars slices of the 
airwaves are now being used to send duplicate TV signals over 
the air, two identical signals from each station, soaking up 
the most valuable of our airwaves, even as the population of TV 
viewers who actually receive their programming over the air 
continues to decline.
    Mr. Grube from Motorola will perform the valuable public 
service today of describing for us exactly how small this 
audience is. Perhaps we can go further and inquire how many of 
the folks in this small audience simply cannot afford either 
cable or satellite service or a $100 digital analog converter 
and how many of these folks just don't care about television.
    Maybe if we gave them the choice, they would choose super 
high speed wireless Internet access or less expensive cell 
phone service or a broadband public safety network or the next 
generation of telemedicine. Maybe they would choose any or all 
of these things over the right to watch endless reruns of 
``Saved by the Bell'' without upgrading the receiver.
    When we talk about the huge swaths of our public airwaves 
that have been given away for nothing to the broadcasting 
industry, we usually think of the billions lost to the 
taxpayers who are forced to underwrite this subsidy or the lost 
consumer opportunities when new wireless applications are 
starving for bandwidth. But as we will hear today, lack of 
available spectrum can also impose human costs that are beyond 
measure.
    I want to thank our witnesses for their testimony today. I 
want to thank Chairman Upton and everyone on the staff and in 
the audience who is working on this problem for your tireless 
efforts to bring interoperable communications technology to our 
first responders.
    Again, Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman. I would just focus on 
welcoming a good Illinois company, Motorola, to the panel and 
say that when members--for members to be successful, sometimes 
we have to specialize just like anything else. And I have been 
fortunate to be involved with the E911 systems, 911 as part of 
an area that I have tried to focus on.
    We have legislation that passed this committee and went to 
the floor, and now we await Senate action on the House version 
of the bill, which is H.R. 2898, trying to move and get all the 
stakeholders engaged in having a true enhanced 911 system that 
is also positioned--a location identification through cellular 
systems and by GPS chips.
    The importance in homeland security and other issues is 
what we also find out in hearings, is the ability for the 
public agencies to, in essence, to recall from the signals or 
call to the signals to warn people in areas in which there may 
be a biological attack and the wind drift areas and the like.
    So I will use this to continue to promote movement on that 
bill and encourage individuals to work with our Senate 
colleagues to make sure that Enhanced 911 is going to get 
enacted, and we get legislation passed on the Senate side and 
we get reconciliation and we get a bill that the President can 
sign, it is very important in this whole debate.
    And with that, Mr. Chairman, thank you, and I yield back my 
time.
    [Additional statements submitted for the record follow:]

    Prepared Statement of Hon. Paul E. Gillmor, a Representative in 
                    Congress from the State of Ohio

    I thank the Chairman for the opportunity to examine the ability of 
public-safety agencies to seamlessly communicate with each other. In an 
environment of terrorist threats, criminal activity, natural disasters, 
and everyday-life emergencies, it is imperative that we address such 
issues and continue lay the groundwork to ensure that first responders 
have the tools they need to keep us safe, healthy, and secure.
    Interoperability is certainly achievable, and I applaud the parties 
represented today who have made great strides in overcoming different 
coordination, technology, budget, and frequency challenges faced by 
local, state, and federal agencies across the country.
    I look forward to hearing from each of the witnesses, and in 
particular the progress being made from such initiatives as Safecom, 
but also other examples of current difficulties in achieving 
interoperability as well as a prospective timeline as to when our 
local, state, and federal agencies will be able to respond in a more 
coordinated and consistent manner during an urgent situation, wherever 
and whatever it may be.
    Again, I thank the Chairman for bringing attention to this 
important issue and yield back the remainder of my time.

                                 ______
                                 
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Mr. Chairman, thank you for calling this hearing today. Protecting 
our homeland security is a top priority of this committee, and I 
applaud you for holding a hearing to examine the progress being made in 
ensuring that our nation's emergency communications systems are 
interoperable.
    It is critical that first responders be able to communicate before, 
during, and after terrorist attacks, criminal acts, and natural 
disasters. The notion that police and fire departments from the same 
city cannot use their handheld radios to communicate with each other is 
mindboggling. And it is no less surprising that local officials cannot 
use their radio systems to communicate with state or federal officials.
    Part of the problem stems from the fact that first responders use 
disparate frequencies for their communications systems. That is why it 
is so important for television broadcasters to return spectrum in the 
Upper 700 MHz band currently used to provide analog television service. 
In 1997, Congress identified 24 MHz of spectrum in this band for public 
safety use. However, until the broadcasters vacate the band, the 
spectrum is virtually worthless to public safety. As a result, Congress 
needs to enact a hard date for the digital television transition so 
that the broadcasters vacate the band.
    The 24 MHz allocated in the 700 MHz band is ideal for 
interoperability. First responders across the nation could use this 
spectrum to share common channels on which multiple local, state, and 
federal agencies could coordinate emergency response.
    Achieving interoperability between emergency communications systems 
will save lives. I appreciate the efforts being undertaken by the 
Department of Homeland Security and the FCC to make interoperability a 
reality. I encourage these agencies to continue to work within the 
Executive Branch as well as with state and local officials and industry 
to make every community's communications systems ready to prevent or 
mitigate a possible terrorist attack.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to working with you and our colleagues to ensure that this 
committee is doing everything possible to protect our homeland 
security.

    Mr. Upton. Thank you. Well, today we are fortunate to have 
the witnesses that we have. And we will start with Dr. David 
Boyd, Deputy Director of the Office of Systems Engineering and 
Development at the Department of Homeland Security; Mr. Gary 
Grube, corporate VP and CTO, Commercial, Government and 
Industrial Solutions for Motorola; Mr. Robert LeGrande, deputy 
chief technology officer of the Office of the Chief Technology 
Officer of the District Of Columbia; and Mr. John Muleta, 
Bureau Chief of the Wireless Telecommunications, obviously from 
the FCC.
    And, gentlemen, we appreciate your testimony. It will be 
made as part of the record in its entirety and we would like 
you to spend 5 minutes now, starting with Dr. Boyd, at which 
point when you are finished we will have questions from members 
of the panel.
    Dr. Boyd, welcome.

    STATEMENTS OF DAVID G. BOYD, DEPUTY DIRECTOR, OFFICE OF 
  SYSTEMS ENGINEERING AND DEVELOPMENT, DEPARTMENT OF HOMELAND 
    SECURITY; GARY GRUBE, CORPORATE VICE PRESIDENT AND CTO, 
COMMERCIAL, GOVERNMENT AND INDUSTRIAL SOLUTIONS, MOTOROLA INC.; 
ROBERT LEGRANDE, DEPUTY CHIEF TECHNOLOGY OFFICER, OFFICE OF THE 
  CHIEF TECHNOLOGY OFFICER, DISTRICT OF COUMBIA; AND JOHN B. 
  MULETA, BUREAU CHIEF, WIRELESS TELECOMMUNICATIONS, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Boyd. Well, thank you, Mr. Chairman, and good 
afternoon, members. Thank you for the invitation to speak to 
you today.
    Earlier this year, Secretary Ridge observed that, ``The 
ability of our first responders to communicate with each other 
as well as share equipment in times of crisis is a critical 
issue facing our Nation. Solving this challenge is a long-
standing and complex problem. There are, however, some 
immediate steps the department can take this year to address 
the communications and equipment needs of first responders and 
make substantial progress to achieving the penultimate 
communications solution.'' To address the needs identified by 
emergency response providers, the Secretary has directed the 
establishment of intradepartmental program offices to address 
several key homeland security priorities. One of these is a 
program office to significantly improve the coordination and 
validation of the department's interoperability programs, thus 
allowing firefighters, police officers and other emergency 
personnel to better communicate and share equipment with each 
other during a major disaster.
    The directorate of Science and Technology within DHS has 
been tasked to lead the planning and implementation of this 
office in coordination with other DHS programs. We recognize 
that for this office to succeed, emergency response providers 
and homeland security practitioners who own, operate and 
maintain more than 90 percent of the Nation's wireless public 
safety infrastructure must be integrated into the program from 
its beginning, so the solutions we create are solutions that 
will actually meet their needs. Cooperation and coordination 
with existing programs is key to reducing the necessary 
duplication of effort and allowing the leveraging of investment 
many public safety agencies have already made.
    Properly designed, non-proprietary open architecture 
standards will maximize competition across industry, encourage 
technology innovation, reduce costs and help to ensure 
compatibility among public safety and homeland security 
agencies. Compliance with the National Incidence Management 
System, the National Response Plan and relevant homeland 
security Presidential directives will provide a consistent 
nationwide approach for agencies at all levels of government to 
work together to prepare for, prevent, respond to and recover 
from major incidents.
    And, finally, outreach efforts will emphasize the need for 
interoperability and provide access to tools for its 
implementation. Initial priority portfolio areas that the 
office will address include communications to the most mature 
of the portfolios, equipment training and others as required.
    We will model this office after the successful SAFECOM 
Program, which as a public safety practitioner-driven program 
works with existing Federal initiatives and key public safety 
stakeholders to address the development of better technologies 
and processes for the cross-jurisdictional and cross-
disciplinary coordination of existing systems and future 
networks. We will do the same across all the portfolios for the 
more than 50,000 local and State public safety agencies and 
organizations and over 100 Federal agencies engaged in public 
safety disciplines, such as law enforcement, fire fighting, 
public health and disaster recovery.
    The SAFECOM Program, which will continue as a key national 
initiative within the new Interoperability Office, has already 
made significant progress at achieving both its short-term 
goals and in building the foundations for a long term, 
comprehensive program. In fiscal year 2003, SAFECOM developed 
common grant guidance which was incorporated into the grant 
programs of the COPS Office, FEMA and ODP and which constituted 
the first coordinated effort to coordinate and align funding 
for communications programs in the Nation.
    We published a comprehensive statement requirements for 
wireless public safety communications and interoperability in 
coordination with the National Public Safety Telecommunications 
Council, the major public safety associations, NIST, and the 
Department of Justice. The requirements identified in this 
document will drive the development and creation of interface 
standards needed to satisfy the needs of State and local 
responders. It offers industry the information they need to 
align their product development efforts with actual users' 
needs, and it will guide research, development, test and 
evaluation programs.
    It constitutes the first national definition of what 
interoperability must accomplish, and within a month of its 
publication more than 5,000 copies were downloaded by public 
safety agencies, practitioners and manufacturers, and many of 
those manufacturers have already approached us to show us how 
they are mapping their capabilities to those requirements.
    We will employ a system engineering or life cycle approach 
to identifying, defining and developing action plans in each 
portfolio area. Common components of this life cycle approach 
include the validation and means assessments, the development 
with the user community of a comprehensive statement of 
requirements for each portfolio, completion of baselines to 
provide starting points for each portfolio, a robust research 
and development program, a robust standards program to identify 
and adopt existing effective standards and to support the 
development of essential standards when none exist, testing and 
evaluation of technologies, development of appropriate grants 
and funding guidance and development of policy and legal 
reference materials or recommendations relevant to each 
portfolio.
    To ensure that the efforts of this office are well 
coordinated an Interagency Interoperability Policy Board will 
be established to help reduce duplication in programs and 
activities. By the direction of Secretary Ridge, this new 
office has already undertaken a major initiative to achieve 
near-term emergency incident level interoperability in high-
threat urban areas before the end of this year.
    Working with a wide range of Federal agencies, including 
the DHS Office for Domestic Preparedness, the Justice 
Department and the National Guard, we have begun working with 
all 10 urban areas to identify what is already in place, what 
is available and what is still needed to provide 
interoperability to support a major incident.
    As a Nation, we must continue to pursue a comprehensive 
strategy that takes into account technical and cultural issues 
associated with improving communications and interoperability. 
It must address research, development, testing and evaluation; 
procurement planning; spectrum management, including solving 
the current 800 megahertz interference problems and identifying 
and freeing up additional spectrum; standards training and 
technical assistance. And it must recognize the challenges 
associated with incorporating legacy equipment and practices in 
the face of a rapidly changing technology environment.
    The many obstacles facing public safety interoperability 
makes for a complex interlocking set of problems with no one-
size-fits-all solution. The new office, in company with a broad 
array of partners from all levels of government, is working 
toward a world where lives and property are not lost because 
public safety agencies are unable to communicate or lack 
compatible equipment and training resources.
    I would be happy to answer any questions.
    [The prepared statement of David G. Boyd follows:]

Prepared Statement of David G. Boyd, Director, SAFECOM Program Office, 
 Directorate of Science and Technology, Department of Homeland Security

    Good morning and thank you, Mr. Chairman and Members of the 
Committee for the invitation to speak to you today. I appreciate your 
interest in the Department's interoperability efforts and am grateful 
for this opportunity to address the important issue of public safety 
interoperability and compatibility before you.

                        PUBLIC SAFETY BACKGROUND

    As Secretary Ridge stated on February 24, 2004,
          The ability for our nation's first responders to communicate 
        with each other as well as share equipment in times of crisis 
        is a critical issue facing our nation. Solving this challenge 
        is a long-standing and complex problem. There are, however, 
        some immediate steps the department can take this year to 
        address the . . . communications and equipment needs of first 
        responders and make substantial progress to achieving the 
        penultimate communications solution.
    Communications interoperability is the ability of public safety 
agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice and/or data with one another 
on demand, in real time, as authorized. The nation is heavily invested 
in an existing infrastructure that is largely incompatible. Currently, 
efforts within the Federal government to address the interoperability 
problem are being coordinated to incorporate the needs of local, state, 
and Federal practitioners. However, there remain many challenges, both 
technical and cultural, facing the improvement of public safety 
communications and interoperability.
    Whether fighting a fire or responding to a terrorist attack, 
efficient and effective emergency response requires coordination, 
communication, and the sharing of vital information and equipment among 
numerous public safety and security agencies. As the National Strategy 
for the Physical Protection of Critical Infrastructures and Key Assets 
makes clear, ``systems supporting emergency response personnel, 
however, have been specifically developed and implemented with respect 
to the unique needs of each agency. Such specification complicates 
interoperability, thereby hindering the ability of various first 
responder organizations to communicate and coordinate resources during 
crisis situations.'' <SUP>1</SUP> The Department of Homeland Security 
(DHS or the Department) believes this issue is so important that it has 
identified interoperability of communications and equipment as the 
number two priority for the second year strategic plan. We seek to 
ensure the interoperability of critical emergency response systems or 
products by making it possible for them to work with other systems or 
products without special effort on the part of the user.
---------------------------------------------------------------------------
    \1\ ``National Strategy for the Physical Protection of Critical 
Infrastructures and Key Assets,'' The White House, February 2003, page 
43.
---------------------------------------------------------------------------
    The Department also has developed intradepartmental program offices 
to address the needs identified by emergency response providers 
<SUP>2</SUP> and to respond to the problems identified in the National 
Strategy for the Physical Protection of Critical Infrastructures and 
Key Assets. One of these is a program office to significantly improve 
the coordination and validation of the Department's interoperability 
programs, thus allowing firefighters, police officers and other 
emergency personnel to better communicate and share equipment with each 
other during a major disaster.
---------------------------------------------------------------------------
    \2\ As defined in the Homeland Security Act of 2002, Section 2(6), 
``The term `emergency response providers' includes Federal, State, and 
local emergency public safety, law enforcement, emergency response, 
emergency medical (including hospital emergency facilities), and 
related personnel, agencies, and authorities.'' 6 U.S.C. 101(6)
---------------------------------------------------------------------------
    Since its beginning, the Department has been involved with the 
issue of wireless interoperability through project SAFECOM. As a public 
safety practitioner driven program, SAFECOM, housed within the 
Department, has been the Federal government's central point to 
coordinate Federal wireless investments and activities and partner with 
State, local, and Tribal governments to improve the interoperability of 
our nation's wireless communications.
    Secretary Ridge has now specifically tasked the Directorate of 
Science and Technology (S&T) within DHS, in coordination with other DHS 
programs, to lead the planning and implementation of an office of 
interoperability that will address the larger issue of 
interoperability, including wireless communications. By coordinating 
and leveraging the vast range of interoperability programs and related 
efforts spread across the Federal government, this office, currently 
titled the ``Office of Interoperability and Compatibility'' (OIC), will 
reduce unnecessary duplication in programs and spending and ensure 
consistency across federal activities related to research and 
development, testing and evaluation (RDT&E), standards, technical 
assistance, training, and grant funding related to interoperability. 
This new program office will encompass the SAFECOM office, which will 
continue as a key national initiative, into the effort to address the 
larger issue of interoperability.
Portfolio Areas
    Within the OIC, we will create a series of portfolios to address 
critical interoperability and compatibility issues related to the 
emergency response provider and homeland security communities. Initial 
priority portfolio areas that the OIC will address, in coordination 
with other Departmental offices, including the DHS Office for Domestic 
Preparedness (ODP), include:

 Communications (through the SAFECOM Program Office);
 Equipment;
 Training; and
 Others as required.
    To establish these portfolios, the OIC currently is identifying the 
necessary stakeholders and will utilize these stakeholders to assess 
and finalize the portfolio areas. Through this process, the OIC will 
identify the current initiatives as well as the most appropriate short-
term deliverables.

Office Implementation
    The OIC is being modeled after the SAFECOM Program, which 
represents a successful model for how to address highly sophisticated 
technical and policy issues associated with public safety 
communications and interoperability. Leveraging the work that the 
SAFECOM Program has already undertaken, the OIC will look to replicate 
relevant elements of the SAFECOM process and to build on SAFECOM's 
achievements in bolstering public safety communications.
    The new OIC will employ a systems engineering or lifecycle approach 
to identifying, defining, and developing action plans in each portfolio 
area. This lifecycle approach is both iterative and collaborative. It 
emphasizes the need to create a common set of standards, policies, and 
procedures that encourage backwards compatibility of new solutions 
which will drive the migration of systems towards advanced, 
interoperable equipment and processes in the future. Common components 
of this lifecycle approach include:

 Validation of needs assessments (consistent with Homeland Security 
        Presidential Directive-8, which lays out the National 
        Preparedness Goal, as appropriate);
 Development, with the user community, of a comprehensive statement of 
        requirements for each portfolio;
 Completion of baselines to provide starting points for each 
        portfolio;
 A robust research and development program for new capabilities;
 A robust standards program to identify and adopt existing, effective 
        standards and to support the development of essential new 
        standards when none exist;
 Testing and evaluation of existing technologies;
 Development of common standards for training and technical 
        assistance;
 Development of appropriate grants/funding guidance; and
 Development of policy and legal reference materials or 
        recommendations relevant to each portfolio.
    Within the OIC, we are following the successful SAFECOM model by 
creating action plans for each of these areas, and for others 
identified as the portfolios are developed. Each of these action plans 
will be developed through a collaborative process that brings together 
the relevant stakeholders to provide clear direction on a path forward. 
The process to develop action plans will involve:

 Assessment of the government agencies involved in each portfolio;
 Identification of the relevant stakeholders at the local, state, and 
        federal levels;
 A stakeholder working session to define the issues, assess user 
        needs, and create a detailed vision of the ``end state'' for 
        each portfolio; and
 A governance structure that ensures ongoing participation on the part 
        of key stakeholders at the local, State, and Federal levels.
    Through this end-user input, the new OIC will produce a strategy 
and action plan to address the interoperability and compatibility needs 
in each of these portfolios.
    The OIC structure should be an organizational reflection of the 
lifecycle process it is designed to manage and support. The main 
purpose of the OIC will be to provide common standards of practice, 
protocol, planning, and evaluation across the broadest spectrum of 
interoperability activities and to facilitate the prioritization and 
coordination of these efforts within the framework of a common, 
nationwide vision.
    The OIC will include a program management office responsible for 
coordinating the various portfolio managers and their respective 
management offices. In addition, a cross-departmental coordinating 
council or interagency interoperability policy board, chaired by the 
Undersecretary for S&T, will be established to ensure that its efforts 
are coordinated intra- and inter-departmentally. This board will help 
reduce duplication in programs and activities.
    With respect to specific task, the new OIC has already, at the 
direction of the Secretary of Homeland Security, undertaken a major 
initiative--RapidComm 9/30--to achieve near term, emergency, incident-
level interoperability in ten high threat urban areas by September 30, 
2004. Working with a wide range of Federal agencies, including the ODP, 
the Justice Department, and the National Guard, we have begun working 
with all ten urban areas to identify what it is in place, what is 
available, and what is still needed to provide interoperability to 
support a major incident.

Players: Owners, Partners, and Stakeholders
    Those with a vested interest in the OIC are the people, agencies, 
and organizations that will directly benefit from enhanced 
interoperability of equipment and processes. Creating interoperability 
requires coordination and partnerships among office managers, partners, 
and stakeholders. Secretary Ridge has directed that S&T will be the 
manager--or owner--of this office, and it will be essential for the 
office to establish partnerships with all relevant offices and agencies 
in order to effectively coordinate like-topic activities. These 
partners will be instrumental in ensuring that our programs address all 
possible issues, ranging from grants for equipment procurement to 
regulatory policy creation. These partners and additional relevant 
stakeholders include representatives from the following communities:

 Emergency response providers represented by their national 
        associations;
 Department of Homeland Security and other government agencies
    a. Operational programs and offices
    b. Research & development offices
    c. Test & evaluation programs
    d. Technical assistance providers
    e. Grant programs;
 Standards Development Organizations; and
 Industry

Principles for Achieving Interoperability
    In order for the OIC to effectively coordinate and validate the 
Department's interoperability programs, it will need to employ a common 
set of standards, policies, and procedures. This will require that the 
program employ a user driven approach and recognize the substantial 
investments that public safety and homeland security agencies have 
already made in existing equipment and procedures. Additionally, this 
office must recognize the challenges associated with incorporating 
legacy equipment and practices in the face of constantly changing 
technology. Driving principles behind the management of this office 
include:

1. Recognizing that it must be a user driven program--Emergency 
        response providers and homeland security practitioners--who 
        own, operate and maintain more than 90% of the nation's 
        wireless public safety infrastructure--will be integrated into 
        the program from its beginning, thereby allowing the program to 
        create solutions that meet their needs. The public safety 
        community will be involved primarily through associations. 
        There are two reasons for this approach: (1) the associations 
        represent the leadership of their respective constituencies; 
        and (2) as the National Task Force on Interoperability (NTFI) 
        has demonstrated, the associations are an excellent way to 
        reach out to these communities.
2. Extensive leveraging of what exists--Cooperation and coordination 
        with existing programs reduces unnecessary duplication of 
        effort and increases efficient use of Federal resources 
        dedicated to common causes. In addition, the investments that 
        many public safety agencies have already made must be 
        maximized.
3. A standards-based approach--Standards maximize competition across 
        industry, encourage technology innovation, create an overall 
        cost savings, and increase compatibility among public safety 
        and homeland security agencies.
4. Compliance with key policy documents and initiatives--Compliance 
        with the National Incident Management System, the National 
        Response Plan, and relevant Homeland Security Presidential 
        Directives will provide a consistent nationwide approach for 
        agencies at all levels of government to work effectively and 
        efficiently together to prepare for, prevent, respond to, and 
        recover from major incidents.
5. An effective outreach program--Outreach efforts will emphasize the 
        need for interoperability, and tools for its implementation, to 
        practitioners and policy makers at all levels of government, 
        and the public safety community.

Portfolio Example: Communications Interoperability
    As a public safety practitioner driven program, and as part of OIC, 
SAFECOM is working with existing Federal communications initiatives and 
key public safety stakeholders to address the need to develop better 
technologies and processes for the cross-jurisdictional and cross-
disciplinary coordination of existing systems and future networks. 
SAFECOM has three objectives: (1) developing standards in partnership 
with Federal, State, local, and tribal public safety organizations to 
define the requirements for first responder interoperability at all 
levels; (2) building from those standards, developing a national 
architecture in coordination with the work under the National Response 
Plan to assist in the progression towards wireless interoperability; 
and (3) developing and implementing a process to coordinate the Federal 
government's wireless interoperability investments and programs. The 
customer base includes over 50,000 local and State public safety 
agencies and organizations. Federal customers include over 100 agencies 
engaged in public safety disciplines such as law enforcement, 
firefighting, public health, and disaster recovery. Because it is a 
government-wide E-Gov initiative, SAFECOM is not a part of the S&T's FY 
2005 budget request. Rather, SAFECOM is currently funded by multiple 
partner agencies that transfer funds to DHS.

SAFECOM Achievements To Date
    Over the last year, SAFECOM has made significant progress in both 
achieving its short-term goals and building the foundation for a longer 
term, comprehensive program. It has established itself as the umbrella 
program within the Federal government coordinating with local, tribal, 
State, and Federal public safety agencies to improve public safety 
communication and interoperability.

 Coordinated Funding Assistance--In FY 2003, SAFECOM developed grant 
        guidance in keeping with the needs of public safety for use by 
        Federal programs funding public safety communications equipment 
        to State and local agencies. Community Oriented Policing 
        Services (COPS), Federal Emergency Management Agency (FEMA), 
        and ODP incorporated this guidance into their public safety 
        communications grants. This guidance marked the first 
        coordinated approach to funding requirements. In further 
        support of the coordinated grant process, SAFECOM organized and 
        funded the peer review process for the joint grant solicitation 
        from COPS and FEMA. SAFECOM also supported the Department of 
        Commerce National Institute of Standards and Technology (NIST) 
        Summit on Interoperability that was the first step towards 
        identifying all the Federal and national programs involved in 
        public safety communications so that a broader coordination 
        effort can continue.

 Statement of Requirements Development--SAFECOM recently developed the 
        Statement of Requirements (SoR) for Wireless Public Safety 
        Communications and Interoperability in coordination with the 
        National Public Safety Telecommunications Council, NIST, and 
        the Department of Justice's AGILE Program. The SoR contains 
        interoperability scenarios describing how SAFECOM envisions 
        technology enhancing public safety. From these scenarios, 
        operational requirements are defined and functional 
        requirements of the technologies are extrapolated. The 
        requirements identified in the SoR will drive the development 
        and creation of interface standards that will satisfy public 
        safety practitioner needs. The SoR will also offer industry a 
        resource for understanding the users' needs in the development 
        of new technologies and serve as a guide for SAFECOM to develop 
        its research development, test, and evaluation program and 
        constitutes the first national definition of what 
        interoperability must accomplish.
    SAFECOM is on track to achieve these critical milestones in 2004:
June: SAFECOM Strategic Plan Update

 SAFECOM will conduct a strategic planning session at the Executive 
        and Advisory (EC/AC) Committee Meetings in June. The EC and AC 
        are comprised of senior level stakeholders from the local, 
        State, and Federal public safety communications communities. At 
        this time, strategic initiatives developed at the December 
        Joint Planning Meeting will be reviewed, and new objectives 
        will be developed for the short and long term goals of the 
        program. Afterwards, SAFECOM will produce and distribute a 
        modified strategic plan based off the stakeholder comments 
        presented at these meetings.
July: Detailed Interoperability Project Plan for Virginia

 SAFECOM will develop a detailed project plan using the result of the 
        strategic planning session and the project team's technical 
        expertise. This project plan will include tasks that need to be 
        accomplished by the Commonwealth along with realistic 
        timeframes for completion. Like the Virginia Strategic Planning 
        Session, this plan will serve as a model for other States as 
        they work towards achieving communications interoperability for 
        public safety first responders.
August: Interoperability Grant Peer Review

 SAFECOM will facilitate interoperability grant peer review sessions 
        enabling public safety communications subject matter experts to 
        evaluate and comment upon grant applications for FY 2004 COPS 
        and FEMA communications equipment grants. These reviewers will 
        ensure that grants will be distributed only for projects that 
        meet SAFECOM developed interoperability requirements.
September: RapidCom9/30 Completed

 SAFECOM is undertaking an initiative to ensure a minimum level of 
        public safety interoperability is in place in ten key urban 
        areas by September 30, 2004. The RapidCom9/30 project will 
        provide incident commanders in charge of managing/directing 
        various responding agencies the ability to adequately 
        communicate with each other and the respective command center 
        within one hour of an incident. Due to this effort's limited 
        scalability, it is not meant to serve as comprehensive public 
        safety communications solutions, but as an interim solution 
        that provides minimum interoperability capability during 
        emergency responses.
September: Narrowbanding Report Released

 SAFECOM will release a report detailing the program's recommendations 
        on spectrum policy in regard to narrowbanding in the 700 MHz 
        band. As recent events in the 800 MHz band have shown, 
        coordinated spectrum policy is important for public safety 
        communications, and SAFECOM's input to any plan in the 700 MHz 
        band will allow for more efficient spectrum use when allocated 
        frequencies become available in the next decade.
September: National Guard Study Released

 SAFECOM will release a report outlining how National Guard Land 
        Mobile Radio (LMR) resources can be incorporated into the plan 
        to achieve nationwide interoperability. It will also identify 
        how local public safety organizations can leverage National 
        Guard assets. The National Guard already has a great deal of 
        investment in LMR facilities, and this report will help local 
        and State public safety organizations utilize resources that 
        may already be present in their communities.
October: Communication Device Report Released

 SAFECOM will release a report detailing the findings of its testing 
        and evaluation program. The first report will focus on the 
        performance of public safety communications equipment with the 
        P25 Phase I standard. This report is the first step in 
        developing a comprehensive national architecture plan for 
        communications interoperability.
November: Portal for Interoperability Information goes live

 The Web Portal of Interoperability Information will be the ``One-
        Stop-Shop'' for information pertaining to public safety 
        communications interoperability. As a portal, it will be an 
        interactive community space, allowing registered users to 
        research potential solutions as well as share their thoughts on 
        existing technologies. Version 1.0 of this portal, which will 
        be released in November, is the first attempt to provide first 
        responders with a central repository of critical information 
        pertaining to communications interoperability.
December: National Interoperability Baseline Methodology Released

 SAFECOM will release a methodology detailing how a baseline of the 
        level of interoperability nationwide can be established. The 
        baseline is required in order to understand the current level 
        of interoperability at the local and State levels and will be 
        used to measure the success of the SAFECOM Program in achieving 
        national communications interoperability for first responders 
        in the coming years.

Conclusion
    Our nation is heavily invested in an existing infrastructure that 
is largely incompatible. As I stated earlier, current efforts within 
the Federal government to address the interoperability problem are 
being coordinated to incorporate the needs of local, State, and Federal 
practitioners. We must continue to pursue the current comprehensive 
strategy that takes into account technical and cultural issues 
associated with improving communications and interoperability, and 
recognizes the challenges associated with incorporating legacy 
equipment and practices given the constantly changing nature of 
technology.
    The many obstacles facing public safety interoperability and 
compatibility make for complex problems with no one-size-fits-all 
solution. Flexible and dynamic resolutions are necessary to combat the 
unique challenges presented by distinct localities and States. The new 
OIC, with its partners, will work towards a world where lives and 
property are never lost unnecessarily because public safety agencies 
are unable to communicate or lack compatible equipment and training 
resources.

    Mr. Upton. Thank you.
    Mr. Grube?

                     STATEMENT OF GARY GRUBE

    Mr. Grube. Good afternoon, Chairman Upton, Ranking Member 
Markey and members of the subcommittee. My name is Gary Grube, 
and I am the chief technology officer of Motorola's Public 
Safety Communications Enterprise, and I have worked with the 
first responder community for nearly 25 years.
    I want to thank you, Mr. Chairman, for scheduling this 
hearing, for your committed leadership on communications 
matters and for focusing on the needs of the Nation's first 
responders. It is an honor to be here with you today to discuss 
mission critical, interoperability communications capabilities.
    Chairman Barton and Ranking Member Dingell, thank you for 
the excellent work earlier this month in marking up the DHS 
authorization bill. It now addresses the need for the 
deployment of communications equipment based on national 
voluntary consensus standards. As you know, a standard called 
Project 25 is the open standard that has been endorsed by every 
major law enforcement organization in the country.
    This hearing follows quite nicely the one you held on June 
2nd on the FCC's digital television transition plan. Motorola 
is highly encouraged by this initiative. The committee 
leadership sent a real message that change is afoot. Chairman 
Barton's leadership and proposal changed the terms of the 
debate. We would like to express our deep appreciation for the 
positive new direction he is setting for the transition.
    I also want to thank the other Congressmen Fossella, 
Stupak, and Engel who have been exploring ways to help get the 
funding first responders need. Motorola has been a leading 
provider of public safety solutions for over 65 years. Wireless 
communications provide our first responders with the right 
information, at the right time and in the right place, whether 
that information is voice, data or video.
    Today, the technology exists to improve the quality and 
effectiveness of public safety operations, but there are two 
obstacles to deploying these new technologies. First, public 
safety must have access to the 700 megahertz spectrum by year-
end 2006 to deploy interoperable voice and advanced data 
technology as early as possible. This spectrum can literally 
save lives.
    Second, public safety needs additional Federal funding to 
purchase the radios and systems necessary to do its job. When 
these steps are taken, advance wireless technology can fully 
support our first responders. Together we can improve the 
quality of mission-critical information to our front-line 
responders.
    An officer or agent could transmit video of a potential 
bomb or biological weapon and get real-time counsel from an 
expert in another location. Local or State police could 
instantly send or receive a photograph of a missing or abducted 
child. Firefighters can access building blueprints, hydrant 
locations, hazardous material data and other critical 
information.
    We have heard a great deal about the need for improved 
interoperability among first responders organizations. Some 
Federal funds have been made available for this purpose, but 
they are inadequate to reach an acceptable level of 
interoperability in a reasonable time. We need congressional 
leadership committed and enforcing a sustained well-funded, 
multiyear Federal program that guarantees this communications 
problem will be fixed.
    Turning to the need for spectrum. In 1997, this committee 
and the FCC recognized its importance by allocating spectrum in 
the 700 megahertz band for mission-critical State and local 
public safety communications. This spectrum continues to be 
used for TV and needs to be cleared.
    This spectrum is critical to public safety operations for 
two reasons. No. 1, 700 megahertz provides additional capacity 
for interoperability and voice communications. And, number 2, 
700 megahertz is the only dedicated spectrum allocation where 
public safety can have high-speed data, wide area access in the 
field to data bases, the Internet, imaging and video, or, in 
other words, critical information.
    Unfortunately, most metropolitan area public safety 
operations cannot use the spectrum today, nor can they predict 
with any certainty when they might have access to these 
frequencies. This uncertainty is due to the way the current law 
is written. In reality, there is no hard date for ending the 
DTV transition, leaving public safety and deployment of vital 
technology in limbo. Until this problem is addressed, 5 percent 
of this Nation's TV stations block improved public safety 
communications for over 50 percent of the population. We are 
mindful of the other considerations that are involved in 
clearing these channels, and we believe that the adverse 
effects can be mitigated.
    At a hearing last year, this committee asked about the 
impact on TV viewers. Using independent data, we have 
determined that, on average, only 3 percent of the TV 
households covered by these blocking stations actually tune in 
over the air during a typical week. As we explore ways to 
resolve the transition, we encourage you to continue your 
examination of the Berlin model which delivered a crisp analog 
cutoff date using digital-to-analog converter boxes. This 
ensured a seamless changeover for all TV consumers.
    Motorola is completing its analysis, and we expect to place 
on record at the FCC an estimate in the sub-$100 range per unit 
for a digital-to-analog converter that would inexpensively 
facilitate a Berlin model type solution in the U.S.
    Even more spectrum may be required in the band to support 
homeland security coordination among Federal, State and local 
agencies and critical infrastructure entities. For example, a 
wide area broadband pilot here in the Capital demonstrates the 
need for such additional spectrum.
    In closing, Mr. Chairman, making the public safety spectrum 
available nationwide by the start of 2007 will not happen 
without your commitment and your help. The first step is to 
agree today to set that hard date. We urge this committee to 
clear the spectrum and to invest in interoperability for all 
public safety radio users. Motorola pledges its support to our 
customers and to this committee to make this happen. Thank you.
    [The prepared statement of Gary Grube follows:]

 Prepared Statement of Gary Grube, Corporate Vice President and Chief 
  Technology Officer, Commercial Government and Industrial Solutions 
                            Sector, Motorola

    Good afternoon, Chairman Upton, Ranking Member Markey and Members 
of the Subcommittee.
    My name is Gary Grube, and I am the Chief Technology Officer of 
Motorola's business sector that serves state and local public safety 
and Federal law enforcement customers. I have worked with the 1st 
responder community for nearly 25 years.
    I want to express my appreciation to you, Mr. Chairman, for 
scheduling this hearing to address such an important issue as improving 
interoperability for our nation's Police, Firefighters, Emergency 
Medical Personnel and Federal agents. It is an honor to be here with 
you today to discuss mission critical interoperable communications 
capabilities.
    I would be remiss if I did not thank you, Chairman Barton, and 
Ranking Member Dingell for the excellent work you undertook earlier 
this month in marking up the Select Committee on Homeland Security's 
DHS authorization bill. It now addresses the need for the deployment of 
communications equipment based on national voluntary consensus 
standards. As you know, a standard called ``Project 25'' is the open 
standard that has been endorsed by every major law enforcement 
organization in the country. And, because it delivers true 
interoperability, the FCC has set P25 as the interoperability standard 
in the 700 MHz band.
    This hearing also follows quite nicely the one you held on June 2nd 
on the DTV transition. You heard testimony from Mr. Ferree on the FCC's 
Media Bureau Plan to advance the DTV transition and thereby provide 
needed spectrum to public safety by the start of 2009. Motorola is 
highly encouraged by this initiative. At that hearing, the Committee 
leadership sent a real message that change is afoot and that the 
American public and their heroes can look forward to date certain 
availability for spectrum for critical interoperable communications. 
Chairman Barton's powerful words and proposal resonated with us and the 
public safety community, and we'd like to express our deep appreciation 
for the positive direction he is setting for this debate.
    I also want to thank the other Members of this Committee, notably 
Congressmen Fossella, Stupak, and Engel who have been exploring ways to 
usher in new 1st responder high-speed communications and to find 
additional funding mechanisms to enable them.
    Meeting these communications needs is critical to the safety and 
well being of our first responders and the entire American public they 
serve. I am pleased to be with you today to support your efforts to 
achieve our shared goal of meeting public safety's communications 
needs.
    I'd also like to note that it is good to be at the witness table 
with David Boyd, who heads the SAFECOM program at the DHS. Mr. Boyd 
works very closely with State and local 1st responders and is very 
supportive of their interoperable communications equipment needs.
    Motorola is a leading provider of communications and information 
solutions, with more than 65 years of experience in meeting the mission 
critical needs of our public safety customers. We offer an extensive 
portfolio of solutions specifically designed to meet the rapidly 
evolving safety and security needs of these customers. Our solutions 
include interoperable mission-critical radio systems based on the P25 
public safety interoperability standard; command and control solutions; 
identification and tracking solutions; information management for 
criminal justice and civil needs; and physical security and monitoring 
solutions.
    In 2002, my business sector in Motorola received the Malcolm 
Baldrige National Quality Award, the nation's premier award for 
performance excellence and quality achievement. We continually strive 
to translate the quality processes upon which this award was based into 
high quality and reliable communications systems for our public safety 
customers. Motorola works very closely with our customers to help them 
implement communications capabilities needed for both every day mission 
critical needs and catastrophic events.

       PUBLIC SAFETY REQUIRES DEDICATED MISSION CRITICAL SYSTEMS

    Our partnership with the public safety community over the years has 
taught us that first responders need systems designed specifically for 
mission critical operations to get the job done. As with most of the 
Northeast and Midwest, the State of Michigan was confronted with a 
large-scale emergency during the August 2003 blackout. Despite the 
failures experienced by various commercial carrier networks in Michigan 
and surrounding states due to these power outages, Michigan's nearly 
12,000 public safety radios experienced no interruptions in 
communications. Police officers, firefighters and EMS providers worked 
as a team in real time to serve the public. Michigan had control over 
its communications because it had created a statewide critical network 
designed specifically for catastrophic situations and events, including 
the disruption of normal power sources. While many public safety 
entities also use public carrier networks for less critical 
communications, there is no substitute for mission critical systems 
when the safety of first responders and the public they serve is at 
risk.

            TRUE INTEROPERABILITY REQUIRES A SUSTAINED FOCUS

    Ask any firefighter, police officer or EMS provider and they will 
tell you that the ability to communicate reliably, instantly and 
securely is one of the most critical factors in managing a crisis 
situation. For almost all first responders, a handheld radio device is 
their communications lifeline--giving them the ability to communicate 
during a crisis situation. While the most visible part of the 
communications system to first responders and the public, these 
handheld devices must be supported by communications network 
infrastructure. Together the system of infrastructure and radios must 
be designed to provide the necessary coverage, capacity, reliability 
and features required for mission critical operations. Yet, despite the 
Federal prioritization of homeland security, a large number of first 
responder radio systems are not yet truly interoperable and simply 
cannot talk to each other in a crisis situation. While public safety 
agencies are making progress on improving communications capabilities 
and interoperability, much more remains to be done. This problem will 
not be solved overnight. There is no ``quick fix'' solution for true 
interoperability. Providing true interoperability for the nation's 
first responders will require a multi-year dedication and focus on the 
part of Congress, the public safety community and industry.
    There are four key foundation blocks to achieving improved public 
safety communications capabilities and interoperability. These are 1) 
sufficient spectrum, 2) adequate funding, 3) use of standardized 
mission critical technology, and 4) operational planning and practice.
    I'll address these briefly, and then in more detail.
    Spectrum that could significantly improve interoperability of 
public safety communications has been allocated but is not yet 
accessible in most major markets. Additional spectrum allocations are 
also needed. The Administration and the Congress have begun to fund the 
various grant programs administered by the Departments of Justice and 
Homeland Security and to set interoperability as a high priority for 
these funds. However, the level of funding in general and the amounts 
set aside for interoperable equipment purchases must be increased 
significantly and sustained over multiple years to deliver on this 
goal.
    Interoperability standards that meet public safety needs and are 
open to all manufacturers have been established for voice and data 
communication and for wideband services. A broadband standards 
development initiative is also underway. Communications technology 
meeting the Project 25 (P25) voice and data interoperability standard 
developed by the public safety community and industry is available from 
multiple equipment vendors. Wideband and broadband technologies capable 
of meeting public safety's increasing need for high speed data and 
imaging have been developed and are being trialed.
    Finally, Pubic safety users realize now, more than at any time in 
history, the value of planning and practice among multiple agencies, 
jurisdictions, and levels of government.
    The remainder of my testimony addresses in more detail the four 
foundation blocks and what Congress can do to help public safety 
improve communications capabilities and interoperability.

        REAL ACCESS TO MORE PUBLIC SAFETY SPECTRUM IS ESSENTIAL.

    As discussed above, effective mission critical mobile and portable 
communications systems are absolutely essential to public safety 
operations. Police officers, firefighters, emergency medical personnel 
and their departments use mobile and portable communications to 
exchange information that can help protect public safety officials and 
the citizens they serve. Traditionally, this information was mostly 
exchanged by voice. Increasingly, as public safety entities strive to 
increase efficiency and effectiveness in today's world, they also need 
the capability to transmit and receive high performance data, still 
images and video reliably. Spectrum is the road upon which such 
communications travel, and increased communications requirements lead 
to the need for more spectrum.
    Based on a thorough justification of need, Congress and the Federal 
Communications Commission dedicated 24 MHz of spectrum in the 700 MHz 
band to State and local public safety in 1997. The FCC established 
specific nationwide interoperability channels within this spectrum 
allocation, as well as both narrowband and broadband channels to 
support a variety of identified public safety communications 
requirements. However, seven years later, incumbent television stations 
operating on channels 62, 63, 64, 65, 67, 68 and 69 prevent public 
safety access to this essential resource in most major urban areas 
where the demand for more spectrum is the greatest. The recent focus on 
increased interoperability and Homeland Security make availability of 
this public safety spectrum nationwide even more critical.
    These channels are critical to public safety for two reasons:

(1) Together, the new 700 MHz and current 800 MHz bands provide the 
        best opportunity to integrate interoperable communications. The 
        700 MHz band's proximity to the 800 MHz band allows public 
        safety agencies to expand their current 800 MHz narrowband 
        voice and data systems for interoperability and regional 
        coordination on an ``intra'' as well as ``inter'' agency basis. 
        Equipment operating in these combined frequency bands on the 
        FCC endorsed Project 25 interoperability standard is 
        commercially available today. The FCC has granted each state a 
        license to operate such narrowband communications in the 700 
        MHz band. Localities throughout the country are actively 
        engaged in spectrum planning at 700 MHz, a prerequisite for 
        obtaining their own FCC licenses. For example, after a yearlong 
        review by the FCC, the Southern California regional plan was 
        recently approved, but TV incumbency prevents actual use of the 
        spectrum in much of that area.
(2) 700 MHz is the only dedicated spectrum allocation where public 
        safety can implement advanced mobile wide area systems that 
        bring high-speed access to databases, the intranet, imaging and 
        video to first responders out in the field.
    This technology offers a whole new level of mobile communications 
capabilities, which is far beyond today's voice and low speed data 
applications. For example:

a. An officer or agent could transmit video of a potential bomb, or 
        biological weapon and get real time counsel from an expert in 
        another location.
b. Local or state police could instantly send or receive a photograph 
        of a missing or abducted child.
c. Crime scene investigators can transmit live video of footprints, 
        fingerprints and evidence to speed analysis and apprehension of 
        perpetrators.
d. Firefighters can access building blueprints, hydrant locations 
        hazardous material data and other critical information.
e. Paramedics can transmit live video of the patient to doctors at the 
        hospital that would help save lives.
    Motorola previously conducted wideband trials together with public 
safety entities in Pinellas County, Florida and the City of Chicago, 
and we are currently participating in the District of Columbia's 
broadband trial. As to the Chicago trial, we greatly appreciate 
Chairman Upton leading a delegation of Committee Members, including 
Congressmen Bass, Rush, and Terry to participate in a demonstration 
last year with the Chicago Police Department. We would like to 
encourage a similar delegation to see the outstanding broadband trial 
that is being led by Robert LeGrande on behalf of the DC Government. We 
are proud to be working with him on an innovative solution that will 
deliver powerful applications to the frontline 1st preventers here in 
our Nation's Capitol. All of these trials operate under experimental 
700 MHz licenses from the FCC. The capabilities demonstrated are the 
emerging powerful multi-media applications that will bring public 
safety communications into the Twenty-First Century.
    Public safety users and industry finalized the wideband 
interoperability standard, TIA902, through the Telecommunications 
Industry Association (TIA). Public safety has recommended that standard 
to the FCC for the 700 MHz wideband channels, and we are anxiously 
awaiting FCC action on that request. Right now, actual product 
development could proceed as soon as we know with certainty that this 
spectrum will be available nationwide to the public safety community.
    Unfortunately, most metropolitan area public safety operations 
cannot use this spectrum today, nor can they predict with any certainty 
when they might have access to these frequencies because of incumbent 
TV operations. Therefore, public safety users in most cities cannot 
deploy, or firm up plans for the actual deployment of, improved 
interoperability and advanced capabilities that will improve their 
effectiveness and safety.
    Current law and policies set December 31, 2006 as the date for 
clearing television from the band. However, this is not a firm date. 
Broadcasters do not have to clear the band until 85% of the households 
in their service areas have the capability to receive digital TV, an 
environment unlikely to be met in most markets by yearend 2006 under 
the current rules. Under current law, while TV incumbents are required 
to vacate this spectrum at the end of 2006, they can receive an 
unlimited extension of this deadline based on the state of the 
transition in their particular market. So, in reality, there is no 
``hard date'' when the transition will end and the spectrum will really 
be accessible to public safety everywhere. This is not the optimal 
situation for the public safety community and those they serve. We 
commend and encourage efforts by this Subcommittee and the FCC to 
ensure that this spectrum is cleared nationwide for public safety use 
no later than yearend 2006.
    The reality is that 5% of this country's TV stations are blocking 
improved public safety communications for 84% of the population in the 
largest cities, those over 200,000. Of that 84%, more than two-thirds 
have no access to the spectrum, while the remaining third have only 
limited access. When we look at all areas of the country, rural as well 
as urban, 54% of our country's population is totally blocked by this 
relatively small number of TV stations from receiving any benefits of 
public safety communications in this band.
    In a hearing before this Subcommittee in June, 2003, Greg Brown of 
Motorola testified about the need for access to the 700 MHz spectrum. 
During that hearing, Subcommittee Members acknowledged this need, but 
also discussed the potential impact on some TV operations of setting a 
firm date for broadcasters to finally return their analog TV channels 
in the 700 MHz band.
    The concerns expressed at that hearing spurred us to perform a 
study to determine the impact on the viewing public of clearing that 
spectrum. That study ``700 MHz TV Clearing and its Impact on TV 
Viewership'' is attached in its entirety. As shown in this study, the 
potential harm to the viewing public is limited. And the benefit to 
public safety is dramatic.
    First, only 75 stations, equaling less than 5% of the more than 
1500 U.S. TV stations, affect public safety's availability of its 
Congressionally mandated 700 MHz band frequencies. Second, Motorola's 
analysis of independent television industry data shows that, on 
average, only 14% of the TV households who have the option to view 
these stations actually do so at all, and that of those viewing, 82% 
watch by cable. This means that, on average, only 3% of the TV 
households within these stations' coverage areas actually tune to these 
stations over-the-air sometime during an average week.
    The Committee is also aware of an FCC plan that would complete the 
analog to digital TV transition by January 1, 2009. We applaud the FCC 
for taking the leadership and initiative to move the debate toward a 
successful conclusion. While 2009 may be an appropriate date by which 
all 1500 or more TV stations would complete the transition, the public 
safety community has stated that its needs justify clearing the 5% of 
stations blocking its 700 MHz band channels by 2007. By yearend 2006, 
public safety will have waited almost ten years to access this 
spectrum.
    As noted above, very few TV households would notice any significant 
impact of clearing this spectrum for public safety. Those that do could 
be provided with an inexpensive digital-to-analog over-the-air 
converter box. Motorola is a TV set-top box provider. That business 
unit is presently completing its analysis, and we expect to place on 
the record at the FCC a sub-$100 estimate per unit for an over-the-air 
digital-to-analog converter that would help to facilitate a Berlin 
Model-type solution in the US. We understand the Committee and the GAO 
are already reviewing the actions undertaken in Berlin, Germany to 
ensure a seamless and pain-free crisp analog to digital TV transition. 
This was achieved through the provision of converter boxes to some TV 
consumers who did not subscribe to cable or satellite service and 
maintained an analog TV set. We believe this is a positive step that 
could provide a real path forward on how to solve the transition here 
in the U.S.
    Congressional action is required to ensure that TV incumbents 
return this critically needed spectrum, without exceptions, by a firm 
date--which should be no later than yearend 2006.
    We urge the Committee not to be deterred from setting this goal 
because it has been hard to achieve to date. Rather, once it has been 
set, the affected parties, including the public safety community, the 
FCC and NTIA, the involved broadcasters and other affected parties, 
including our company, should be called upon to devote our energies to 
making it happen.
    As you know, the 24 MHz of spectrum in the 700 MHz band is 
allocated for State and local public safety use. That spectrum, if 
cleared, would only partially satisfy the spectrum need documented by 
the public safety community. No comparable spectrum exists for meeting 
the Homeland Security requirements of Federal agencies or critical 
infrastructure entities. Such interoperability among State and local 
first responders, Federal agencies and critical infrastructure entities 
will best be achieved through the availability of comparable spectrum 
resources. Therefore, we recommend that Congress consider meeting these 
additional needs by reallocating the remaining 30 MHz of commercial 
spectrum in the 747-762 MHz and 777-792 MHz portions of the band which 
are presently targeted for auction. This spectrum should be reallocated 
as a Homeland Security band to support State, local, Federal and 
critical infrastructure (such a utilities and nuclear facilities) 
communications needs.
    We also note that a spectrum coalition headed by Mr. LeGrande, in 
the District of Columbia Office of the Chief Technology Officer (OCTO), 
has requested that 10 MHz of additional spectrum at 700 MHz be 
designated for broadband use. Since that 10 MHz falls within the 30 MHz 
recommended for reallocation here, we believe that request and 
reallocation of the 30 MHz are complementary to one another. Motorola 
is quite pleased to be one of the partners with OCTO in trialling 700 
MHz broadband systems and public safety applications.
    As part of this reallocation, Congress should charter a committee 
of key representatives from major public safety associations, Federal 
agencies and critical infrastructure entities to determine how that 
additional 30 MHz of spectrum should be distributed among State, local, 
Federal and critical infrastructure entities.
    Should the government wish to pursue this important reallocation of 
spectrum, anticipated auction revenue from these 30 MHz of spectrum 
would no longer be available. However, we believe substitute spectrum 
that could provide potentially stronger auction receipts can be 
identified to replace this anticipated revenue and could be used to 
support a Berlin Model-type subsidy solution domestically. Motorola 
greatly appreciates this Committee's continued policy thrust to find 
ways to reinvest spectrum auction revenues in ways to advance 
technology deployment and economic development, whether it is the 
Commercial Spectrum Enhancement Act that this body passed last year and 
is under active consideration in the Senate, or the Chairman's proposal 
to use auction revenue to help support the return of the analog TV 
frequencies for other valuable services--including interoperability.

 PROJECT 25 IS THE U.S. INTEROPERABILITY STANDARD FOR MISSION CRITICAL 
                               OPERATIONS

    In addition to spectrum access, standardized technology is 
critically important to achieving interoperability. Fortunately, the 
public safety community and multiple manufacturers have partnered to 
develop a suite of standards for interoperability known as Project 25.
    Public safety users adopted the P25 standard in order to implement 
an open standard that promotes interoperability and system migration, 
and enables more competitive procurements for digital radio systems and 
radios--thereby eliminating dependence on one vendor for radios, even 
after their systems have been installed.
    P25 is actually a full suite of standards that, when built into 
communications equipment, provides the basis for interoperable digital 
radio voice and low-speed data communications among multiple public 
safety users, departments and agencies. These standards were developed 
under the auspices of, and are published by, the Telecommunications 
Industry Association (TIA), and accredited by the American National 
Standards Institute (ANSI). Public safety users led the development of 
the standard and have the option to choose Project 25 products from 
multiple vendors.
    Unlike many other communications standards and technologies in the 
broader wireless industry, the unique mission critical requirements of 
public safety users drove the development of the P25 suite of 
standards. High priority was given to public safety's operational and 
tactical requirements. For reasons of cost effectiveness, the Project 
25 standards permit a graceful migration path from aging analog to new 
digital systems. These standards promote improved spectral efficiency, 
and, as intended, allow for multi-vendor equipment offerings. Radios 
that meet the P25 standards incorporate backward compatibility with 
conventional analog systems. Project 25 radios communicate in analog 
mode to analog radios, and either digital or analog modes with other 
P25 radios.
    Public safety users at all levels of government have embraced 
Project 25. For example, P25 has received the endorsement of the 
National Association of State Telecommunications Directors (NASTD), the 
Association of Public Safety Communications Officials--International 
(APCO), the International Association of Chiefs of Police (IACP), the 
International Association of Fire Chiefs (IAFC), the Major Cities 
Chiefs (MCC), the National Sheriffs' Association (NSA), and the Major 
County Sheriffs' Association (MCSA).
    Project 25 has received broad support at the Federal level as well. 
Based on public safety user recommendations, the FCC endorsed the 
Project 25 suite of standards for voice and low-speed data 
interoperability in the new nation-wide 700 MHz frequency band. Every 
700 MHz radio must include Project 25 compatibility defined by this 
TIA/ANSI standard, and the FCC set P25 as the required mode of 
operation on the 700 MHz interoperability channels. The U.S. Department 
of Defense mandated P25 for new land mobile radio systems. The 
Department of Homeland Security has also endorsed P25 as the preferred 
standard for digitally trunked radio systems as part of its Federal 
grant guidance.

         INTEROPERABILITY FUNDING SHOULD BE A NATIONAL PRIORITY

    Full public safety communications interoperability within the 
decade should be a national goal. This is an ambitious goal, but a very 
worthy and doable one. Our nation has the necessary technology, the 
standards and equipment. After spectrum, what is lacking are the 
economic resources to acquire the equipment and deploy the systems, 
particularly at the state and local level, and we will not achieve this 
goal at the present pace of system upgrades. Instead, it will require a 
commitment lead by determined champions. Mr. Chairman, I urge this 
Committee to assume this important role.
    There are several reasons why the Federal government must take the 
lead. As we all know, homeland security is a Federal, State and local 
responsibility, but national planning begins at the Federal level. This 
is one of the reasons why the Congress and the President created the 
new Department of Homeland Security.
    While we cannot predict future terrorist attacks, we must prepare 
for the real possibility and threat. Also, we do know that we will face 
natural disasters such as hurricanes, tornados, wildfires, and 
earthquakes and other threats such as hostage takings, hazardous 
materials spills, and train wrecks. Interoperable public safety 
communications are critical to effective response in all these cases.
    The states face a staggering $80 billion aggregated deficit in 
FY2004 alone, and this puts serious limits on their spending. As a 
result, they cannot be expected to accomplish this goal without 
substantial Federal support. Accordingly, we need a well-funded, multi-
year Federal program that guarantees that this communication problem is 
fixed, once and for all.
    Consequently, we must work aggressively to increase the funds 
devoted to interoperable communications now and until the job is done. 
Nothing should be allowed to delay or impede this funding effort. In FY 
2004, approximately $4.4 billion was appropriated for Federal equipment 
grant programs for State and local first responders.-- However, 
wireless communications is only one of a large number of allowed uses 
for these funds. Only about $85 million or 2% of the total was 
designated in the legislation specifically for wireless communications 
enhancements.-- We would ask for your help to increase the sums 
designated for wireless communications in light of the broad consensus 
that exists for improving the status of wireless communications 
interoperability among government entities. If we are going to fix the 
interoperability problem we must have a well-defined goal, a program to 
achieve that goal, and a way of measuring programs that is visible to 
the Congress.
    We certainly cannot afford the human costs associated with delaying 
achievement of full interoperability.
     planning and practice are also essential for interoperability
    Planning for interoperability at the operational level is also a 
key element of improving interoperability. In situations where multiple 
agencies and jurisdictions have planned operational procedures and 
practiced that plan, interoperability has improved. For example, 
multiple agencies can decide in advance how best to organize 
communications groups to support the various responders at an incident 
scene. Practice drills help public safety responders become familiar 
with these procedures so they can be more easily implemented at an 
actual emergency incident.
    Planning and practice are supplements to, not substitutes for, 
adequate spectrum, funding and technology. All elements of the 
foundation need to be in place to improve public safety mission 
critical interoperability and capability. While Congress has the 
greatest influence over the interoperability building blocks of 
spectrum and funding, public safety agencies are the focal point for 
planning and practice.
    Mr. Chairman, ensuring that our nation's public safety officials 
have the tools they need to protect our citizens in the years ahead is 
a sound investment for the entire country. We urge this Committee to 
clear spectrum for public safety and to champion investments in 
interoperability for all public safety radio users. Motorola pledges 
its support to our public safety customers and to this Committee to 
help you make this happen.
    Thank you.

    Mr. Upton. Thank you.
    Mr. LeGrande?

                  STATEMENT OF ROBERT LEGRANDE

    Mr. LeGrande. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Robert LeGrande, and I am a deputy 
chief technology officer for the Office the Chief Technology 
Officer, the central information technology and 
telecommunications agency of the District of Columbia 
government. I am responsible for wireless communications 
infrastructure for the District government and a representative 
of the Spectrum Coalition for Public Safety.
    Over the past year and a half, I have led wireless public 
safety voice and data communications programs for the District 
of Columbia. In this role, I have partnered with executives, 
communication decisionmakers and field personnel of the 
Metropolitan Police Department and the Fire and EMS Department 
to upgrade our public safety voice network and install public 
safety broadband wireless networks.
    During this process, I gained tremendous respect for the 
work of our first responders and gained an even greater 
appreciation of their communications needs. Today, I will 
describe for you the efforts and the results of the voice 
communication upgrades, which include local, regional and 
Federal interoperability. I will also describe the Spectrum 
Coalition for Public Safety's efforts to secure additional 
megahertz of 700 spectrum which will enable Public Safety to 
build and deploy broadband wireless networks throughout the 
United States.
    Please reference the diagram with the city configuration 
here to my right. This diagram represents both the 
accomplishments of a wireless voice and the vision of our 
wireless broadband communications within the District. As 
depicted in the diagram, our recently upgraded 10-site radio 
network provides comprehensive in-building coverage, augmented 
by 63 vehicle repeater systems to provide the highest level of 
coverage available to first responders.
    In addition, by using distributive antenna techniques, we 
provided for the first time nearly 100 percent coverage in the 
underground subway system. It is important to emphasize that 
interoperability is accomplished individual by individual, and 
I say this because we must first ensure that our first 
responders can communicate clearly in all areas of the city 
before we focus on communications outside or with other 
agencies. Without sufficient radio coverage, intraoperability, 
much less interoperability, is impossible, putting lives at 
risk, even for day-to-day first responder events.
    This wireless infrastructure will soon ride on the city's 
fiber optic network. DC Net delivers the highest level of 
redundancy and reliability for our first responders.
    In order to achieve interoperability, we took several 
steps. First we had to upgrade the coverage and capacity or our 
preexisting non-interoperable local networks. We accomplished 
this by creating a single dual-band radio network. Next, we had 
to create interoperability on our intra-District public 
communication systems and other first responders in the region.
    Please reference the Rubik's Cube depiction of the DC-based 
regional public safety interoperability diagram. When my team 
first shared this diagram with me, I simply hated it, because 
it was too complex and too hard to understand. Later, my 
thought became, ``Exactly.'' Interoperability among many 
jurisdictions is very complex and hard to understand. In this 
diagram, we only note the interoperability methodologies for 
the District of Columbia. Please understand, every agency that 
is on the left of that diagram must have a similar Rubik's Cube 
representing its interoperability methodologies. All of these 
puzzles must be figured out for all the agencies represented in 
order to achieve interoperability in the region. It is a very 
complex process.
    I am very pleased to report to this committee that we have 
made substantial improvements in public safety voice 
communications, and a detailed status of the DC 
interoperability progress is provided in attachment 3 of my 
testimony. These improvements would not have been possible 
without Federal investment and the coordinated efforts of our 
Regional Council of Governance, which is made up of first 
responders, which is made up of first responders, leaders and 
communications specialists from our surrounding region.
    Additionally, and without them prompting me to say this, 
without clear, unambiguous direction from our congressional 
leaders, our mayor, city council, city administrator, deputy 
mayor for public safety, police and fire chiefs and my boss, 
Suzanne Peck, the chief technology officer of this city, we 
would have simply failed that direction: Work together, get it 
done now.
    The interoperability effort considered several options. We 
chose to create dual band 460 and 800 megahertz network because 
we could use Motorola's existing SmartZone architecture to 
incorporate all of the existing 800 megahertz radios and over 
half of the 460 megahertz radios. This allowed neighboring 
agencies using 800 megahertz radios to communicate with our 460 
megahertz police radios through a central hub, and through 
trunk radio technology delivered the maximum number of 
individual communication paths for numerous simultaneous 
incidents and talk groups.
    As mentioned previously, our underground project, managed 
jointly with WMATA and completed in March of this year, 
remedied coverage problems for the District's fire and EMS 
first responders in the WMATA subway system, upgrading the 800 
megahertz underground distributive antenna system. District 
firefighters now have seamless coverage for above and below 
ground, and they can actually ride the train and achieve a high 
level of voice quality. Together, these two projects gave the 
District one of the best public safety wireless voice systems 
in the Nation: Comprehensive coverage, 27 channels, a 
regionally interoperable system providing clear voice 
communication, encryption and other digital features.
    During the requirements and design phase of our voice 
programs, we realized that providing upgraded voice 
communications for first responders is simply not enough. The 
threats to our country and region are real an imminent. 
Providing our first responders with city-wide remote 
surveillance, chemical and biological and bomb detection 
systems is critical to preventing attacks.
    Additionally, early detection of attacks will speed our 
response capabilities. We evaluated the use of commercially 
available wireless networks, wideband wireless networks and 
networks deployed at the 4.9 gigahertz spectrum, and none of 
these met our requirements. Please note, individuals and 
organizations that wish to do our country harm already have 
city-wide broadband wireless capabilities in the District of 
Columbia, North Carolina and San Diego. They can sign up 
anonymously for Verizon or Nextel's services in these areas and 
conduct real-time broadband intelligence gathering and video 
surveillance; worse, attack coordination for far better 
coordination capabilities than was used in Madrid, Spain. Our 
first responders need better tools than the terrorists.
    Recently, the District launched initiatives aimed at 
delivering the next generation broadband wireless solutions in 
the Nation's Capital, and potentially the Nation. We founded 
the Spectrum Coalition for Public Safety for 30 states, 
counties, cities, regions and public safety organizations. The 
goals of this coalition is to pursue legislation that require 
the FCC to reserve an additional 10 megahertz of radio spectrum 
for wide area public safety broadband wireless uses, enabling 
competitive, affordable technologies that meet first responder 
requirements and facilitate nationwide network deployment.
    Concurrently, the District is deploying on a pilot basis 
the Nation's first citywide wireless broadband public safety 
network to demonstrate these public safety applications. We 
have one transceiver site working in the Capitol Hill area. 
Please reference quickly the diagram to the left. These 
pictures taken yesterday show a real-time video teleconference 
between my team members located at the Capitol and MPD 
headquarters.
    The solution leverages Flarion Technologies OFDM Flash 
Network and Motorola's newly developed greenhouse video 
dispatch application. The full 10-site network operating under 
an 18-month experimental license approved by the FCC is slated 
for completion in the summer of this year and will provide 
broadband wireless service throughout the District of Columbia. 
I would like to stress that the continuing cooperation from DHS 
and FCC is appreciated. We also enjoy our ongoing support of 
our corporate partners, Flarion Technologies, Televate, 
Motorola and SAIC.
    In conclusion, please allow me to list some public safety 
challenges that this committee can help address. First, of 
course, is to provide the additional 10 megahertz of 700 
spectrum for wide area broadband wireless public safety 
applications. Second, to accelerate, as we have mentioned 
earlier, the 700 megahertz spectrum clearing efforts. And last, 
of course, is to accelerate the resolution of the Nextel 
interference issue.
    We look forward to the debate on the merits of our 
legislation, which we have included in our testimony, and we 
also welcome the opportunities to demonstrate this forward-
thinking solution to the members of this subcommittee. I thank 
you for your support.
    [The prepared statement of Robert Legrande follows:]

Prepared Statement of Robert LeGrande, Deputy Chief Technology Officer, 
                    District of Columbia Government

                              INTRODUCTION

    Good afternoon, Mr. Chairman and members of the Subcommittee. My 
name is Robert LeGrande. I am a Deputy Chief Technology Officer in the 
Office the Chief Technology Officer (OCTO), the central information 
technology and telecommunications agency of the District of Columbia 
government. I am responsible for wireless communications infrastructure 
for the District government, and a representative of the Spectrum 
Coalition for Public Safety. I will describe for you how the District 
now has a state-of-the-art public safety voice network, complete with 
local, regional, and federal, interoperability and where we came from 
to get to this state. I will also describe the Spectrum Coalition for 
Public Safety's efforts to secure additional 700 MHz spectrum which 
will enable Public Safety to build and deploy Broadband Wireless 
Networks throughout the U.S. To reach this level of interoperability, 
we had to take several steps. First, we had to upgrade the coverage and 
capacity of our pre-existing non-interoperable local networks. Next, we 
had to unify these separate networks. Finally, we had to create 
interoperability between our intra-District public safety 
communications systems and other first responders in the region. We 
reached these goals by completing two major projects in September 2003 
and March of this year. We have now embarked on the next step in fully 
loaded public safety communications capabilities: creating the high-
speed broadband wireless data communications urgently needed by first 
responders throughout the nation. (Please see Attachment I, Public 
Safety Wireless Voice and Data Communications, for a graphic 
representation of these initiatives.) I will describe each of these 
efforts in grater detail, focusing particularly on the interoperability 
challenges we faced and the solutions we developed.

  PUBLIC SAFETY VOICE COMMUNICATIONS IN THE DISTRICT OF COLUMBIA PRE-
                             SEPTEMBER 2003

    Before September 2003, the District's public safety radio 
communications infrastructure included two networks: a four-site 
Motorola SmartZone <SUP>TM</SUP> system operating at 800 MHz for Fire 
and Emergency Management Services (FEMS) and Emergency Management 
Agency (EMA) personnel, and a seven-site conventional analog system 
operating at 460 MHz for the Metropolitan Police Department (MPD). Both 
networks had major deficiencies. The FEMS network had insufficient in-
building radio coverage in the core areas of the city--limitations 
compounded by the complex architecture of buildings in Washington, DC. 
(Despite these in-building coverage limitations, however, the network 
compared favorably with other major city networks in on-street coverage 
and quality.) There was no coverage in underground subway tunnels. The 
police network provided reasonable coverage throughout the city, but it 
was antiquated, failing, and in critical need of replacement. The 
network was over 30 years old, spare parts were no longer available 
from the original manufacturers, and some of them were no longer in 
business. Both networks suffered from capacity limitations. The FEMS-
EMA 800 MHz network provided 16-radio channels, while the MPD UHF 
network had only 13 conventional channels and regularly experienced 
channel congestion intervals during the busiest hours. Our 
infrastructure had little to no interoperability within the District, 
due to the technical and operational disparity between the two 
networks, including frequency band and radio technology.

               PUBLIC SAFETY RADIO COMMUNICATIONS UPGRADE

    To solve these problems, a team of Motorola and District of 
Columbia engineers worked for six months to design an optimal unified 
communications network that would address the interlocking deficiencies 
of coverage, capacity, and interoperability in Washington, DC.
  Coverage Analysis and Design
    City management set an aggressive coverage goal of providing 100% 
communications within the District while minimizing the need for radio-
to-radio communications (talk-around). We met this challenge in two 
projects, an above-ground project completed in September 2003, and an 
underground project completed in March 2004.
    Our above-ground coverage analysis revealed that it was impractical 
to cover the interiors of all buildings using traditional radio sites. 
Instead, the analysis yielded a strategy to cover the majority (85%) of 
exterior and interior locations by expanding antenna sites from four to 
10 and explore alternatives for covering the remaining areas. These 
alternatives were in--building distributed antenna systems and in-
vehicle repeater systems. Our team quickly discovered that in-building 
systems were extremely expensive, created noise in the system that 
would degrade overall coverage, and could easily fail during fires or 
terrorist attacks. Vehicular repeater systems presented none of these 
problems, although they could not provide the same transparency as in-
building systems, because they require first responders to change 
channels on their radios from the city-wide network to the vehicular 
repeater frequency. The city piloted a half-dozen vehicular repeater 
systems and found that single or multiple units could solve coverage 
problems in the densest of District buildings. Ultimately, the District 
implemented vehicular repeater systems in 63 fire suppression vehicles 
to ensure that a VRS would be available wherever needed to enhance in-
building communications.
    The subway tunnel system presented a more daunting challenge. The 
coverage gaps in tunnels were far too great to be addressed by VRS 
systems. However, sufficient resources existed underground to support a 
distributed antenna system. Therefore, the District, in partnership 
with The Metropolitan Area Transit Authority (WMATA) chose an 
underground distributed antenna system at 800 MHz and permitted the MPD 
to share WMATA's 490 MHz radio network that provides underground 
coverage. Key advantages of this system were the scope of coverage and 
transparency. Nearly 100% of all public underground areas were covered 
by the underground project completion date in March 2004,--there 
remains one lone corridor with fair voice quality will soon be upgraded 
to excellent voice quality.
    Together, our above-ground and underground coverage solutions 
deliver nearly 100% coverage with only very limited need for radio-to-
radio communication and provide District of Columbia first responders 
with citywide clear voice communication.
  Interoperability and Capacity Analysis and Design
    In addition to providing our first responders with the best 
possible radio coverage, we needed to deliver the best interoperability 
and capacity solution--the ability for District first responders to 
communicate within their agencies and among the maximum number of 
external agencies whenever necessary. Most of the District's 
surrounding counties use Motorola SmartZone <SUP>TM</SUP> technology 
<SUP>1</SUP> at 800 MHz. As discussed above, before the upgrade, the 
District had a seven site conventional analog system operating at 460 
MHz for MPD and a four site Motorola SmartZone <SUP>TM</SUP> system 
operating at 800 MHz for FEMS and other District agencies. The District 
owned over 1,000 800 MHz radios compatible with the Motorola SmartZone 
<SUP>TM</SUP> system, nearly 2,000 portable 460 MHz radios with 
SmartZone <SUP>TM</SUP> capabilities and over 1,000 mobile 460 MHz 
radios capable of communicating on a SmartZone network. These same 
radios could be upgraded to support the public safety Project 25 radio 
standard, but not while maintaining important features and allowing 
dual-mode operations with SmartZone <SUP>TM</SUP> systems. Further, the 
surrounding municipalities operated mobile and portable radios that 
were programmed and configured to support SmartZone <SUP>TM</SUP> 
networks, but not Project 25 networks.
---------------------------------------------------------------------------
    \1\ For purposes of simplicity, we use SmartZone <SUP>TM</SUP> 
generically to describe both SmartNet <SUP>TM</SUP> and SmartZone 
<SUP>TM</SUP> systems.
---------------------------------------------------------------------------
    It is important to note that these radios operate in a single band. 
The 460 MHz radios operate in the 450--512 MHz range and the 800 MHz 
radios operate in the 806-824 MHz range. Therefore, a 460 MHz radio can 
not communicate directly on our neighboring county networks operating 
in the 806-824 MHz range. To alleviate this problem, the District 
aggressively sought to migrate MPD to 800 MHz. The team calculated a 
net requirement of 27-35 trunked voice channels at 800 MHz to satisfy 
aggregate demand for all District of Columbia public safety personnel. 
The District had 16 channels at 800 MHz and 13 channels at 460 MHz at 
the start of the analysis.
    We considered several options for the migration:

 Implement additional 800 MHz frequencies,
 Use the public safety 700 MHz spectrum (24 MHz) and operate a 700/800 
        MHz network,
 Split the 16 existing 25 kHz channels to create up to 32 channels, 
        and
 Create a dual-band 460/800 MHz network.
    I'll review each option briefly.
  Implement Additional 800 MHz Frequencies
    To satisfy the aggregate demand, the District would need an 
additional 12 frequencies in the 800 Mhz band. Unfortunately, given the 
presence of our neighboring jurisdictions and Nextel in this band, we 
could not identify enough 800 MHz channels to meet our needs. We 
approached Nextel and engaged vendors to investigate short-spacing 
channels, both without success. Therefore, we had to discard this 
option.
  Use the Public Safety 700 MHz spectrum (24 MHz) and Operate a 700/800 
        MHz Network
    The additional channels in the 24 MHz of radio spectrum in the 700 
MHz band presented some compelling opportunities. First, there were 
cost-effective multi-band radios on the market that could operate in 
both 700 and 800 MHz.<SUP>2</SUP> Second, there was considerable 
capacity in that band. Third, the technology used in the 700 MHz band, 
Project 25, was in the process of standardization, and therefore, 
presented an opportunity for expanded vendors and products. However, 
given the majority of users and systems operating SmartZone systems, 
our network needed to provide SmartZone service to agencies supporting 
District first responders within the city. Unfortunately, no 
integrated, dual-mode (P25 and SmartZone) network existed.
---------------------------------------------------------------------------
    \2\ However, the entire police department would need new 800/700 
radios, and FEMS might need new radios as well (their radios supported 
only 800 MHz). The result would be between 5,000 and 7,000 new 800/700 
MHz radios costing $7-13 million more than the cost of upgrades to 460 
MHz radios and new digital-capable 460 MHz radios.
---------------------------------------------------------------------------
    Moreover, the availability of the 700 MHz band was limited by the 
presence of TV broadcasters in our region. Therefore, we had to 
conclude that this option not feasible and halted efforts to build a 
Project 25-compatible network.
  Split Existing 800 MHz Channels to Create up to 32 Total Channels
    To implement this solution, a vendor would have to enable the use 
of adjacent channels at 12.5 kHz (instead of the existing 25 kHz) 
without interfering among the channels. Given the preponderance of 
SmartZone <SUP>TM</SUP> systems in the region, we first explored 
creating a SmartZone system that could utilize the half-spaced 
channels. Unfortunately, this option proved infeasible because the 
SmartZone system could not tune to those interspaced frequencies.
  Create a Dual-Band 460/800 MHz Network
    The dual band option would provide city-wide service from all sites 
at both bands and integrate them at a central hub. Analysis revealed 
that this option was not only feasible, but highly advantageous. It 
relied on existing frequencies licensed to the District of Columbia, 
and therefore presented limited risk of interference and licensing 
issues with the Federal Communications Commission (FCC). Motorola's 
existing SmartZone architecture could create a zone at 460 MHz and 800 
MHz. This solution could incorporate all of the existing 800 MHz radios 
and over half of the MPD radios. It also allowed adjacent agencies 
using 800 MHz radios to communicate with MPD radios at 460 MHz through 
the central hub. Further, by incorporating trunked radio technology, 
this solution delivered the maximum number of individual communications 
paths for simultaneous incidents. For example, this solution allows our 
first responders to communicate with Prince George's County Police 
while simultaneously maintaining a separate communications channel with 
United States Park Police but not consume resources when those channels 
were not needed. In addition, because WMATA uses a Motorola SmartZone 
network operating at 490 MHz, MPD could gain direct interoperability 
with WMATA and MPD will gain coverage within the tunnel system in July 
2004. The dual-band option could also support a total of 27 trunked 
voice channels, providing adequate capacity for the first time.
    The main disadvantage of this option was lack of interoperability 
for MPD officers operating outside the coverage area of our District of 
Columbia 460 MHz network. However, the disadvantage proves relatively 
insignificant. MPD officers travel outside our coverage area 
infrequently, as most mutual support situations (e.g., July 4th, 
Presidential Inaugurations, marches, and demonstrations) bring officers 
from neighboring municipalities into the District.
  Upgrade Implementation
    We implemented the coverage, interoperability, and capacity 
solutions I've just described on a fast track (April 2002-March 2004, 
less than two years from conception to completion) and at a relatively 
reasonable total cost of $42 million ($36 million in federal emergency 
preparedness funds, $2.5 million in grants, and $3.45 million in 
District funds). The results, as I've indicated, were overwhelmingly 
successful: we now have a full-coverage, 27 trunked voice channels, 
regionally interoperable system providing clear voice communication, 
encryption, and other digital features for all our first responders.
    Of course, we faced numerous challenges along the way. We overcame 
these challenges through clear, unified direction and support from our 
Mayor, City Council, Deputy Mayor for Public Safety, Chiefs of Police 
and FEMS, Chief Technology Officer, and police and fire unions. In 
addition, we were fortunate in having strong, knowledgeable, and driven 
corporate partners, Motorola, Inc. and Televate, LLC.

 RADIO INTEROPERABILITY WITHIN THE NATIONAL CAPITAL REGION/COUNCIL OF 
                              GOVERNMENTS

    The National Capital Region (NCR) consists of in two states 
(Virginia and Maryland) and the District of Columbia. Voice radio 
interoperability for public safety entities in this region is 
essential. Equally essential for the District is interoperable 
communications with multiple critical federal agencies including the 
FBI, Secret Service, Bureau of Alcohol, Tobacco, and Firearms (ATF), 
Federal Emergency Management Agency (FEMA), the State Department, and 
others. There are also over 40 federal law enforcement agencies 
operating in the city, including Capital Police, Park Police, Mint 
Police and many others, with whom MPD dispatch and police officers must 
have direct communications. Finally, it is important that the District 
maintain communications within the WMATA subway tunnels and directly 
with police and airport authorities at the Reagan National Airport.
    As illustrated in Attachment II (Regional Public Safety Wireless 
Communications Interoperability), establishing voice radio 
interoperability with this wide array of agencies, many of which are 
operating multiple radio technologies in different regions of the radio 
spectrum, including VHF, UHF and 800 MHz, is a major technical, 
operational and administrative challenge. The interoperability cube in 
the attachment depicts the levels of interoperability planned by the 
region. The region continues to implement solutions to further enhance 
and simplify radio communications. More funding for technical and 
operational standards development and training, along with the 
installation of permanent, dedicated ``interoperability'' managers and 
technicians is required to ensure that these solutions remain readily 
available on demand in the community.
    In order to simplify this complex radio communications effort, 
interoperability has been engineered into three levels.
    Level One Interoperability: Spare incident radios (radio cache) 
operating on common interoperable channels, including mutual aid, are 
made available to local and national responders who do not have 
programmed UHF and 800 MHz trunked radios or conventional radios on 
regional mutual aid channels. The simplest, but not necessarily the 
most effective, means to achieve interoperability is to distribute on-
location radios to incident commanders and responders. Existing radio 
caches and excess spare radio inventories within the District and NCR/
COG are distributed as appropriate. In response to an identified 
shortage of spare radios in the NCR, the federal government provided a 
grant in FY 2004 to increase the availability of 800 MHz trunked 
radios. A 1,000 unit COG Radio Cache will be available beginning in 
mid-summer of 2004, just weeks away.
    Level Two Interoperability: In order to achieve a higher level of 
interoperability within the NCR between separate public safety 
portable/mobile radios and telephone system exchanges, regional 
partners have implemented a ``radio interface module'' manufactured by 
JPS Communications, the ACU-1000. With assistance from the Department 
of Homeland Security (DHS) wireless division, SAFECOM, this technology 
has been successfully implemented in most of the jurisdictions and 
agencies (local, state and federal) in the region. The ACU-1000 device 
provides communication ``patching'' between agencies by integrating 
agency radios into an interface module. Radio patching allows 
dispatchers to manually facilitate radio communications between users 
of different technologies and frequencies. The District's ACU-1000 unit 
encompasses 21 distinct radios, supporting all local fire and police 
agencies and critical federal agencies.
    Radio patching through the ACU-1000 or similar devices, while 
effective in enhancing interoperability, has various limitations and 
presents operational challenges. Agency radios must be integrated, 
maintained and programmed to reflect the latest radio user template. 
Since templates change almost annually for most public safety radio 
users, it is difficult to maintain up-to-date radios in the device. The 
technology also entails complicated set-up protocols, requires user 
training, and lacks standardized operational procedures. Because these 
devices are not daily equipment, end users can become ``rusty'' and 
function improperly. Because the networks are not integrated, this is 
the only means to connect multiple networks today.
    Level Three Interoperability: The most effective route to 
interoperability for co-located work groups is to install directly 
compatible, same-technology systems and radios (trunked or 
conventional). Trunked networks, common in the NCR, must be programmed 
with common trunked system and radio IDs and interoperable talkgroups. 
Most of the fire department users in the region, except for Prince 
George's County in Maryland, have direct access to each other's 800 MHz 
trunked radio networks. When first responders in the region enter the 
city to assist the District's fire department, they can communicate on 
the District's radio network or vice versa. All users are operating on 
a common radio network using the same radio technology.
    The new MPD radio network, while not at 800 MHz where surrounding 
county police reside, was designed to be fully compatible with local 
law enforcement radio networks through the use of a Motorola SmartZone 
radio network switch. The District is able to provide local law 
enforcement users access to the District 800 MHz trunked network, which 
supports direct communications with MPD radio users on their UHF 
network.
    An alternative to direct radio network compatibility is to 
establish mutual aid channels for non-standard network users with call-
in capability to a dispatch console. The District has implemented a 
conventional VHF channel that facilitates direct access for several 
federal agencies to the District's citywide MPD dispatcher. A federal 
user with this channel programmed into his/her radio can direct call 
the MPD dispatcher to request MPD support and/or communication with 
individual MPD officers. The District is now working with SAFECOM to 
enhance this mutual aid network, expand the number of usable channels 
to three, and extend coverage throughout the NCR. This approach will 
support regional interoperability between the District and federal user 
agencies and enhance interoperability among federal agencies and 
between federal users and surrounding NCR first responders. While not a 
perfect interoperability solution, the mutual-aid-channel design will 
provide near-term mobile communications between responder agencies.
    Attachment III (DC-Regional PS Voice Interoperability Status) 
presents a tabular view of current and in progress interoperability 
within the NCR. This summary reflects the work of hundreds of public 
safety officials, first responders and technologists, who, with the 
support of Congress, dedicate their energy and lives to ensuring 
reliable and functional radio communications within the region and 
beyond. However, while our success to date is encouraging, we have more 
work to do to achieve simple, on demand regional and federal 
interoperability within the region. Public safety radios must be 
programmed directly to change talkgroups or frequencies. Therefore, 
while an interoperable network infrastructure exists, a considerable 
amount of work still remains to reprogram thousands of radios and train 
first responders how to use the new capabilities. Additionally, as 
discussed below, the Washington, DC NRC does not have interoperability 
with key Department of Defense agencies that is vital to higher-level 
emergency response.

    INTEROPERABILITY BETWEEN THE DISTRICT AND DEPARTMENT OF DEFENSE 
                                AGENCIES

    District officials and technologists have recently begun 
discussions with various Department of Defense (DoD) agencies to 
analyze the current state of interoperability between the parties. 
While the investigation is still in its infancy, hampered by lack of 
dedicated staff and capital resources, the results are clear: 
interoperability between NCR first responders and critical DoD agencies 
is insufficient and must be increased now to ensure that the affected 
agencies can meet near-term emergency communications requirements. The 
recommendations agreed upon between the DoD and NCR include 
implementing technical and operational solutions that are available 
today and expanding and institutionalizing the dialogue between the 
affected agencies to ensure that planned radio network changes and 
upgrades are regularly addressed and incorporated into the 
interoperability operations. It is important to note, however, that the 
District is already providing technical support to the Washington 
National Guard and has designed interoperability into a radio network 
enhancement that the Guard is now undertaking.

                     WIRELESS BROADBAND DATA NEEDS

  The Challenge of High-speed Wireless Data Communication
    The District's current wireless data communications capabilities 
rely on commercial cellular offerings at low speed (19.2 kbps). This 
speed provides extremely limited capabilities, largely restricted to 
text transmission. It also places public safety at risk from commercial 
networks that are not built to withstand long periods without power 
(e.g., hurricanes and winter storms) and lack enough redundancy to 
maintain connectivity between transceiver sites and central hubs. 
Additionally, the commercial technology upon which the District's 
public safety communications relies will be dismantled in 2005 forcing 
the District, and all such users nationally, to migrate to an 
alternative wireless transport technology.
    Adequate response to emergencies ranging from multiple-alarm 
building fires to chemical, biological and other terrorist attacks 
requires immediate and rapid communications among multiple first-
responders including fire, police, and emergency medical services. 
Currently, first-responders must rely on voice communications to 
receive time-sensitive information about an emergency incident. 
Information often comes too late or is lost altogether. Broadband 
wireless networks can dramatically improve public safety communications 
and operations nationally by providing full-motion, high-resolution 
video and other bandwidth-intensive monitoring tools to multiple first 
responders. These tools will allow sharing of time-critical information 
needed to respond more effectively to both routine and catastrophic 
events.
    The demand on a wireless broadband network from one user can range 
from low-speed web browsing at 50-200 kilobits per second (kbps) to 
multiple real-time streaming video images transmitted at 1.2 megabits 
per second (Mbps). The District has demonstrated that its aggregate 
citywide demand on a network can exceed 50 Mbps and that usage can be 
concentrated in one area to require 10 Mbps per transmission site. 
Unfortunately, current public safety spectrum allocations at 700 MHz 
and 4.9 GHz for wireless data do not meet these needs, as data speeds 
do not meet individual and aggregate demand levels, or service is 
limited geographically and first responders must travel to hotspots to 
secure information--potentially losing critical life-saving time. 
Attachment IV (Public Safety Spectrum Overview 1 and 2) provides an 
analysis of the options available to public safety to satisfy high-
speed wireless data needs.
    At the root of the problem are radio propagation and channel 
bandwidth. The former results in signal degradation as the first 
responder travels farther from the transmission site (or when walls or 
other obstructions lie between the two endpoints). The latter results 
in decreased channel rates.
    The propagation characteristics of radio frequency waves at 4.9 GHz 
and radio frequency waves at 700 MHz are so different that they result 
in extremely high deployment costs and operational costs for 4.9 GHz 
systems. In particular, as the transmitted frequency rises, the RF wave 
propagation transmission losses increase, thus reducing the coverage 
area of a base station. Therefore, assuming the deployment of the same 
technology, complete coverage of a city like Washington, DC would 
require significantly more sites at 4.9 GHz rather than at 700 MHz.
    For instance, if we assume free space propagation conditions, all 
things besides the frequency considered being equal, the range of a 4.9 
GHz base station would be seven times smaller than the range of a 700 
MHz station.<SUP>3</SUP> Consequently, to provide citywide coverage 
would require almost 50 times the number of antenna sites at 4.9 GHz as 
at 700 MHz. The District of Columbia has estimated that about 420 sites 
would be needed to provide comprehensive coverage throughout the city 
at 4.9 GHz instead of the 10 required at 700 MHz, leading to 
significant deployment costs and prohibitive operational costs.
---------------------------------------------------------------------------
    \3\ The free space propagation at 1 km is 89.3 dB at 700 MHz, and 
106.2 dB at 4.9 GHz. Those 17 dB propagation difference would result in 
a coverage radius ratio of 7 (coverage area ratio of 49), between the 
two frequency bands. Therefore obtaining the same services provided by 
the 10 sites covering the city at 700 MHz today would require more than 
400 sites at 4.9 GHz.
---------------------------------------------------------------------------
    Actually, these comparisons are optimistic, as they are based on a 
free-space propagation assumption. In fact, the reality of the mobile 
propagation environment is worse, and actually worsens for higher 
frequencies. As described in a white paper published by TROPOS networks 
<SUP>4</SUP> natural or man-made obstacles generate propagation losses 
in addition to the free space propagation loss. In the referenced paper 
the authors compare 2.4 GHz to 4.9 GHz propagation characteristics. 
However, for the reasons explained above (propagation performance 
worsens as the frequency increases), the numbers in this paper would 
have to be considered lower bounds of propagation differences between 
700 MHz and 4.9 GHz.
---------------------------------------------------------------------------
    \4\ See http://www.troposnetworks.com/pdf/Spectrum_Whitepaper.pdf 
for further details.
---------------------------------------------------------------------------
    Those significant additional signal losses at the higher 
frequencies suggest that 50 to 100 times more sites would be needed for 
wireless coverage at 4.9 GHz to match coverage at 700 MHz. Thus, the 
4.9 GHz spectrum is fundamentally limited in reach and requires 
numerous repeaters to reach even marginal distances. It is actually 
best suited to line-of-sight propagation, e.g. rooftop-to-rooftop 
communications, mesh-type networks where users can create a daisy chain 
for end-to-end communications, or short-distance communications around 
a fixed location (hot-spots).
    Most public safety wireless data applications are expected to reach 
or support first responders wherever they are located in the District, 
whether driving car in a park or working in buildings. The 700 MHz band 
is the best-suited spectrum to support those applications.
  Channel Bandwidth and Numbers of Channels
    The maximum channel bandwidth in the existing 700 MHz allocation to 
public safety is 150 kHz. Technologies such as the standardized TIA-902 
Scalable Adaptive Modulation have been tailored to this channel 
bandwidth and offer speeds up to 460 kbps. Unfortunately, this 
bandwidth does not support multiple video streams for an individual 
user. Furthermore, the 12 MHz <SUP>5</SUP> of radio spectrum set aside 
for wideband data must be shared among three states and over a dozen 
public safety agencies. Consequently, the District expects no more than 
three or four paired channels offering peak citywide throughput of 1.4 
to 1.9 Mbps--far less than projected citywide demand and much less than 
aggregate demand for one transmission site.
---------------------------------------------------------------------------
    \5\ This represents the paired amount of spectrum for frequency 
duplexed operation. Of this 12 MHz, 5.4 MHz is reserved for future 
applications by the FCC. The total number of 150 kHz paired channels is 
40.
---------------------------------------------------------------------------
  Requirements for Broadband Wireless Data for First Responders
    First responders need video, Geographical Information Systems 
(GIS), high-resolution still images, and other broadband data wherever 
their work takes them. On the highways, high-resolution images must be 
delivered as soon as possible. At the farthest points of any service 
area, first responders need to send and receive video for appropriate 
support. Further, first responders need broadband data delivered deep 
inside buildings on portable handheld devices, just as voice signals 
are now delivered by our new voice network. Table-1 below outlines the 
multiple requirements for broadband wireless data for first responders:

               Table 1: Summary of Technical Requirements
------------------------------------------------------------------------

------------------------------------------------------------------------
General Requirements
User Throughput...........................  Designed to 80% load
  Downlink (kbps).........................  1,500
  Uplink (kbps)...........................  500
Scalability...............................  High, Minimal coordination
                                             burden when increasing
                                             capacity.
Mobility..................................  Vehicular (>80 mph)
Coverage..................................  Wide area (95% of Outdoor
                                             Area)
Connectivity..............................  All IP addressable.
Cost......................................  Comparable with existing
                                             cellular solutions.
Terminals.................................  Supports standard device
                                             interfaces and offers low
                                             power consumption and small
                                             form factor options.
  Large-Scale Incident Throughput
 Requirements
Aggregate Demand (Entire District)........
  Downlink (kbps).........................  56,100
  Uplink (kbps)...........................  20,080
Throughput Concentration..................  70% of major incident
                                             traffic in 20% of the city
                                             geography
Per Site Throughput (demand)..............  10 sites with the above
                                             throughput concentration
  Downlink (kbps).........................  7,860
  Uplink (kbps)...........................  2,951
Per Site Throughput (with margin).........  Designed to  80% load
  Downlink (kbps).........................  10,000
  Uplink (kbps)...........................  3,700
Net Capacity (Entire District)............
  Downlink (kbps).........................  100,000
  Uplink (kbps)...........................  37,000
------------------------------------------------------------------------

        NATIONAL COALITION FOR PUBLIC SAFETY BROADBAND SPECTRUM

    Recognizing that our wireless high-speed broadband data needs were 
the same as those of the rest of the nation, the District of Columbia 
founded the Spectrum Coalition for Public Safety (see Attachment V, 
Spectrum Coalition Fact Sheet). Thirty States, counties, cities, 
regions and public safety organizations quickly joined the Coalition. 
The public safety communications organizations documented their support 
in the attached letter (Attachment VI, Public Safety Organization 
Support for New Broadband Spectrum Allocation). The Coalition's 
objectives are to pursue legislation that would require the FCC to 
reserve 10 MHz of radio spectrum for wide area public safety broadband 
wireless uses; to enable competitive, affordable technologies that meet 
first-response requirements; and to facilitate nationwide network 
deployment. We have developed draft legislation (Attachment VII, First 
Responders Enhancement Act (FREA)) that calls for the spectrum 
allocation changes and have briefed more than 35 House and Senate 
member offices on our goals.
  Design and Installation of Pilot Network
    The urgent needs of first responders in the District of Columbia 
required more than pursuing legislation to facilitate network 
deployment. Our need is real and immediate. With the support of our 
public safety, technology, legislative, and executive leaders and our 
corporate partners--Motorola, Inc. and Flarion Technologies, Inc.--we 
obtained an experimental license from the FCC and are now installing 
the nation's first high-speed broadband wide-area wireless network for 
public safety. One additional partner, SAIC, is assisting us with 
application analysis. We have one live transceiver site and can 
transmit broadband radio signals throughout the Capitol Hill area. In 
late summer of 2004 we will complete installation of all 10 transceiver 
sites in the network and will provide broadband radio coverage 
throughout the District of Columbia. We will use the pilot to refine 
our system requirements for usability, scalability, reliability, and 
security. The applications planned for testing on the network include 
remote chemical and biological agent detection, video surveillance; 
helicopter video support, bomb squad video support, GIS applications, 
and EMS remote doctor support. This pilot network, with the full 10 MHZ 
allocation, will meet the requirements outlined in Table 1.

                               CONCLUSION

    As the nation's capital, the District of Columbia faces unique and 
unusual public safety communications challenges. We have met the first 
level of these challenges by upgrading our public safety voice network 
to one of the best in the nation. We look forward to complementing that 
network with the nation's first citywide wireless broadband public 
safety network, and we hope that our leadership of the Spectrum 
Coalition will enable other jurisdictions to have the same public 
safety tools in the near future. We appreciate the support that the 
Coalition has received in both the Senate and House of Representatives 
and look forward to continuing our dialogue with the nation's leaders 
on the Coalition's critical objectives.

    Mr. Upton. Thank you.
    Mr. Muleta? Welcome back.

                   STATEMENT OF JOHN B. MULETA

    Mr. Muleta. Thank you. Good afternoon Chairman Upton, 
Ranking Member Markey and other members of the Subcommittee on 
Telecommunications and the Internet. I want to thank you for 
this opportunity to appear before you on behalf of the FCC to 
discuss our work in facilitating interoperability between the 
Nation's 40,000 public safety communications systems.
    Under the leadership of Chairman Powell, the commission has 
intensified its efforts in this area and designated homeland 
security and public safety issues one of the commission's six 
core strategic objectives. As September 11th vividly 
demonstrated, the ability of public safety systems to 
communicate seamlessly at incident sites with minimal onsite 
coordination is critical to saving lives and property. The FCC 
is therefore committed to use all of its resources to promote 
and enhance the interoperability of the thousands of public 
safety systems that make up a critical part of our Nation's 
homeland security network.
    Interoperability requires focus on more than spectrum, 
technology and equipment issues. It also requires focus on the 
organizational and personnel coordination and communication 
that is necessary to make it available in the time of our 
greatest need. For its part, the commission directs its efforts 
to, No. 1, providing additional spectrum for public safety 
systems; two, nurturing technological developments that enhance 
interoperability; and, three, providing its expertise and input 
for interagency efforts such as SAFECOM to improve our homeland 
security.
    To date, specific FCC efforts have included designating 
blocks of spectrum between 100 and 900 megahertz for 
interoperability and emergency services; adopting regional 
planning as an alternative approach for spectrum licensing and 
management to drive coordination and communication, promoting 
and sharing of radio spectrum facilities, and adopting 
recommendations set by the Public Safety National Coordination 
Committee, exploring the potential of new technologies such as 
cognitive radios to enhance interoperability, and, finally, 
developing stronger day-to-day working relationship with 
SAFECOM and other critical organizations that help drive 
interoperability.
    It is important to note that despite all of our efforts, 
there are limitations to what the FCC can do. The FCC is only 
one stakeholder in the process, and many of the challenges to 
interoperability exist because disparate governmental 
interests, local, State, and Federal, individually operate 
portions of our national public safety system. Each of these 
interests has different capabilities in terms of funding and 
technological sophistication, making it difficult to develop 
and deploy interoperability strategies uniformly throughout the 
country. Regardless of these problems, we at the FCC continue 
to advance policies that enable all of the stakeholders to do 
their best in maintaining a strong and viable national public 
safety system.
    Turning to spectrum for public safety, the commission has 
currently designated throughout the country approximately 97 
megahertz of spectrum from 10 different bands for public safety 
use. Public safety entities also actively use spectrum-based 
services in other spectrum bands.
    For example, under the ultra-wideband rules, the ground 
penetrating radars and imaging systems enable public safety 
users to detect the location or movement of people behind or 
within walls or other structures, an important and potentially 
lifesaving tool. Moreover, the available priority access 
services on some commercial wireless networks gives certain 
emergency personnel greater ability to access commercial, 
cellular and personal communication services in times of 
crises.
    Looking at more recent public safety spectrum allocations, 
in the last few years, the commission has made two allocations 
that illustrate the importance placed on assuring that public 
safety entities have the sufficient spectrum to carry out their 
critical missions. First, consistent with the Balanced Budget 
Act of 1997, the FCC identified and allocated 24 megahertz of 
spectrum in the 700 megahertz band for public safety used, as 
has been noted by many folks today.
    As part of this proceeding, the FCC dedicated 2.6 megahertz 
of this spectrum for interoperability purposes. Given the 
central role that states play managing emergency 
communications, the FCC also concluded that the states are best 
suited for administrative interoperability spectrum and that 
State level administration will promote safety of lives, 
property through seamless coordinated communications on 
interoperability spectrum.
    The FCC also designated 50 megahertz of spectrum at 4.9 
gigahertz for public safety users in the response to requests 
from the public safety community for additional spectrum for 
broadband data communications. The 4.9 gigahertz band will also 
foster interoperability in two ways: One, by providing a 
regulatory framework where traditional public safety entities 
can license it on a shared basis and where they can also pursue 
strategic partnership with other non-public safety actors as 
needed for the completion of their mission.
    In addition to using its resources to identify additional 
spectrum, the FCC has also provided for, No. 1, innovative 
licensing methods; two, creating planning methods that 
encourage better coordination and communication; and, No. 3, 
promoted new technologies. Foremost in this area, the 
commission adopted the regional planning approach to spectrum 
management as an alternative to the traditional long-held 
belief in first-in-the-door approach to spectrum licensing and 
management in the public safety context.
    In order to promote interoperability, the commission also 
permits 2 types of spectrum sharing. First, the FCC's rules 
specifically provide for shared use of radio stations where 
licensees may share facilities on a non-profit, cost-shared 
basis with other public safety organizations and end users. In 
July of 2000, the commission expanded this sharing provision. 
This rule also allows Federal Government entities to share 
these facilities as end users.
    A second type of sharing is unique to the 700 megahertz 
public safety spectrum. In this band, State and local public 
safety licensees may construct and operate joint facilities 
with the Federal Government. The commission took this action to 
encourage partnership of FCC-licensed State or local government 
entities with Federal entities in order to promote 
interoperability and more efficient use of the spectrum.
    To promote the new technologies, the FCC chartered the 
Public Safety National Coordination Committee, NCC, which 
operated as a Federal advisory committee between 1999 and 2003. 
The NCC recommended technical and operational standards to 
assure interoperability in the 700 megahertz public safety 
band. The NCC worked with the Telecommunications Industry 
Association, a credited standard developer, to develop 
interoperability technical standards that are open and non-
proprietary.
    Moving on to the coordination issue, the FCC recognizes 
interagency coordination as an essential factor in developing 
effective interoperability. To that end, my staff and other 
staff of the FCC routinely confers with critical organizations, 
including APCO, the National Public Safety Telecommunications 
Council, the International Association of Fire Chiefs and 
International Association of Chiefs of Police.
    Moreover, my staff has been working closely with the 
Department of Homeland Security's SAFECOM. The FCC and SAFECOM 
share the common goal of improving public safety communications 
interoperability. We are continuing to work on our 
collaborative efforts to develop a strong working relationship, 
both formally and informally.
    For example, the FCC is an active member of SAFECOM's 
Advisory Group. In addition, FCC staff meets routinely with 
staff from SAFECOM, including on several occasions where 
information was exchanged and we received briefings. Most 
recently, we did this on a March 11 presentation to SAFECOM's 
Executive Committee on matters pending before the commission. 
The FCC has also attended and participated in several events 
hosted by SAFECOM, including its 2003 Summit on Interoperable 
Communications for Public Safety and the 2004 Public Safety 
Communications Interoperability Conference.
    Moreover, on a personal level, Dr. Boyd and I have 
established direct lines of communication between us to promote 
and ensure effective coordination regarding homeland security 
and public safety communications initiatives.
    I would like to thank you for the opportunity to testify in 
front of you on this important issue affecting our homeland 
security, and I will gladly answer any questions you might 
have. Thank you.
    [The prepared statement of John B. Muleta follows:]

         Prepared Statement of John B. Muleta, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission

                              INTRODUCTION

    Good afternoon Chairman Upton, Ranking Member Markey and other 
Members of the Subcommittee on Telecommunications and the Internet. 
Thank you for this opportunity to appear before you on behalf of the 
Federal Communications Commission to discuss our work in facilitating 
interoperability between the nation's public safety communications 
systems.
    Currently, there are more than 40,000 spectrum licenses designated 
for public safety systems under the Communications Act. The Commission 
has the unique role of providing spectrum for state and local 
governments to use as part of these systems. As a result, the 
Commission has had a long-standing commitment to the protection and 
enhancement of public safety communications systems. Under the 
leadership of Chairman Michael K. Powell, the Commission has 
intensified its efforts in this area and designated homeland security 
and public safety issues one of the Commission's six core strategic 
objectives. As September 11, 2001 demonstrated, the ability of public 
safety systems to communicate seamlessly at incident sites with minimal 
on-site coordination is critical to saving lives and property. The FCC 
is therefore committed to use all of its resources to promote and 
enhance the interoperability of the thousands of public safety systems 
that make up a critical part of our nation's homeland security network.
    The Commission's experience indicates that a holistic approach is 
the best method for fostering interoperability. Achieving 
interoperability requires an emphasis on more than spectrum, technology 
and equipment issues--it also requires a focus on the organizational 
and personnel coordination and communication necessary to make 
interoperability available in times of greatest need. For its part, the 
Commission directs its efforts toward providing additional spectrum for 
public safety systems, nurturing technological developments enhancing 
interoperability and providing its expertise and input for interagency 
efforts such as SAFECOM.
    There are limitations, however, to what the FCC can do. The 
Commission is only one stakeholder in the process and many of the 
challenges facing interoperability are a result of the disparate 
governmental interests--local, state, and federal--that individually 
operate portions of our national public safety system. Each of these 
interests has different capabilities in terms of funding and 
technological sophistication, making it difficult to develop and deploy 
interoperability strategies uniformly throughout the country. 
Regardless of these problems, we at the FCC continue to advance 
policies that enable all of the stakeholders to do their best in 
maintaining a strong and viable national public safety system.

                          COMMISSION RESOURCES

    The FCC works in an integrated and flexible fashion to assign 
spectrum for public safety purposes. The Wireless Telecommunications 
Bureau (WTB) and the Office of Engineering and Technology (OET) share 
significant responsibility for intra-agency projects related to 
interoperability technology and policy development. The Commission also 
maintains a Homeland Security Policy Council (HSPC) and created the 
Office of Homeland Security within the Enforcement Bureau to facilitate 
intergovernmental communications on homeland security issues.

Wireless Telecommunications Bureau
    WTB underwent a reorganization this past year that created the 
Public Safety and Critical Infrastructure Division (PS&CID). PS&CID now 
has a clear focus--its job is to administer the licensing rules for 
public safety radio networks and the related radio networks of critical 
infrastructure industries such as the nation's utilities. The division 
also has the responsibility of promulgating rules that require wireless 
carriers to deploy E911 systems throughout the country for the benefit 
and use of over 160 million cell phone subscribers--another critical 
element of the nation's homeland security system. The division's 
routine day-to-day contact with public safety licensees, their vendors 
and other stakeholders allows it to closely monitor industry trends and 
needs. In 2003, WTB processed more than 529,000 public safety and other 
private and mobile applications, including applications for new 
licenses, license modifications and renewals, waivers, and requests for 
special temporary authority.

Office of Engineering and Technology
    In addition to its responsibility for spectrum allocations, OET 
routinely assesses vulnerabilities in communications networks and 
equipment and makes recommendations for facilitating improvements to 
network security, reliability and integrity. OET also evaluates new 
technologies and makes recommendations to the Commission for rule 
changes which would enable their use to improve the communications 
capability of the nation's public safety community. OET is the agency's 
principal point of contact with the National Telecommunications and 
Information Administration (NTIA) and in this role works with NTIA on 
spectrum issues that affect both non-Federal and Federal government 
spectrum users, including state, local and federal first responders.

Homeland Security Policy Council and Office of Homeland Security
    The FCC's Homeland Security Policy Council (HSPC), created in 
November, 2001 and composed of senior managers of the Agency's policy 
bureaus and offices, and the Office of Homeland Security (OHS) assist 
the Commission in implementing the Homeland Security Action Plan. Among 
the directives of the Action Plan is to ensure that public safety, 
public health, and other emergency and defense personnel have effective 
communications services available to them as needed.
    Equally as important, HSPC and OHS ensure coordination with other 
federal, state, and local entities that are involved with Homeland 
Security. For example, as a partner with the Department of Homeland 
Security, the FCC has promoted registration of states and localities in 
the Telecommunications Service Priority and the Wireless Priority 
Access Service programs. These programs provide wireline and wireless 
telephone dial tone to public safety entities on a priority basis 
during and following a disaster. HSPC members are also working with 
disabilities rights organizations to identify and resolve 
communications issues that have an impact on that community during 
national emergencies.
    In addition, HSPC and OHS work closely to support the Network 
Reliability and Interoperability Council (NRIC VII) and Media Security 
and Reliability Council (MSRC), two of the FCC's federal advisory 
committees. Through NRIC VII, communications industry leaders provide 
recommendations and best practices to the FCC focused on assuring 
optimal reliability and interoperability of wireless, wireline, 
satellite, paging, Internet and cable public communications networks 
and the rapid restoration of such services following a major 
disruption. MSRC does much the same with the goal of achieving optimal 
reliability, robustness and security of broadcast and multi-channel 
video programming distribution facilities. Public safety 
representatives are part of this effort since, during emergencies, TV 
and radio are sources of information for citizens.

                       SPECTRUM FOR PUBLIC SAFETY

    The Commission currently has designated throughout the country 
approximately 97 MHz of spectrum from ten different bands for public 
safety use. Public safety entities also actively use spectrum-based 
services in other spectrum bands. For example, under the ultra-wideband 
rules, ground penetrating radars and imaging systems enable public 
safety users to detect the location or movement of people behind or 
within walls or other structures, an important and potentially 
lifesaving tool. In addition, various frequencies are available from 2 
to 25 MHz for emergency communications.
    The Commission also grants licenses to public safety entities for 
non-public safety spectrum to promote effective and efficient public 
safety communications. Such actions have allowed public safety entities 
to implement state-of-the-art communications systems and/or increase 
interoperability. Also, many public safety entities use commercial 
wireless communications to supplement their other non-emergency 
communications. Finally, the availability of Priority Access Service 
(PAS) on some commercial wireless networks gives certain emergency 
personnel greater ability to access commercial cellular and Personal 
Communications Service (PCS) systems in times of crisis.

Spectrum Dedicated for Public Safety Interoperability
    The Commission has designated certain channels in the public safety 
bands for public safety interoperability. A public safety entity may 
use these designated frequencies only if it uses equipment that permits 
inter-system interoperability. The frequencies that have these so-
called ``use designations'' include 2.6 MHz of the 700 MHz band, 5 
channels in the 800 MHz band, 5 channels in the 150 MHz band (VHF 
Band), and 4 channels in the 450 MHz band (UHF Band).
    Starting on January 1, 2005, the Commission will require newly 
certified public safety mobile radio units to have the capacity to 
transmit and receive on the nationwide public safety interoperability 
calling channel in the UHF and VHF bands in which it is operating. 
Also, in the case of certain inland coastal areas, known as VHF Public 
Coast areas (VPCs), the Commission has designated several additional 
channels in the VHF band to be used exclusively for interoperable 
communications.

Recent Public Safety Spectrum Allocations
    In the last few years, the Commission has made two allocations that 
illustrate the importance placed on ensuring that public safety 
entities have sufficient spectrum to carry out their critical missions. 
First, consistent with the Balanced Budget Act of 1997, the Commission 
identified and allocated 24 MHz of spectrum in the 700 MHz band for 
public safety use. Second, the Commission made available for public 
safety use 50 MHz of spectrum at 4.9 GHz.
    To better facilitate use of the 700 MHz public safety spectrum, the 
Commission adopted special rules and policies. It crafted provisions 
both to address the continuing interoperability issues among various 
public safety systems and to provide flexibility to accommodate a wide 
variety of innovative uses. In particular, the Commission dedicated 2.6 
MHz of this spectrum for interoperability purposes. Given the central 
role that states provide in managing emergency communications, the 
Commission concluded that states are well-suited for administering the 
interoperability spectrum and that state-level administration would 
promote safety of life and property through seamless, coordinated 
communications on the interoperability spectrum.
    The FCC's rules provide that the states may manage interoperability 
channels in two ways: (1) they may establish a State Interoperability 
Executive Committee (SIEC) or its equivalent; or (2) they may designate 
their Commission established Regional Planning Committees (RPCs). 
Thirty-eight states and the District of Columbia elected to administer 
their interoperability spectrum. For the fourteen that did not, the 
RPCs have been delegated the responsibility to administer this 
spectrum.
    From the beginning, the Commission has recognized that the utility 
of this spectrum for public safety depended on taking actions, 
consistent with the current statutory scheme, to minimize, and 
ultimately clear, the broadcast use of this spectrum. For instance, 
during the digital television (``DTV'') planning, the Commission 
minimized the use of channels 60-69. As a result, the new 700 MHz 
public safety spectrum on TV channels 63-64 and 68-69 is available now 
in many areas of the country. Because of the significance of this 
spectrum for public safety, especially first responders and 
interoperability, the Commission is actively considering ways to bring 
the digital transition to its conclusion. Indeed, under the direction 
of Chairman Powell, the Media Bureau has developed a bold framework 
that would provide a soft landing and a clear conclusion for the DTV 
transition so that, in part, we can provide public safety with this 
additional spectrum.
    The Commission's second allocation, 50 MHz of spectrum at 4.9 GHz 
(4940-4990 MHz), promises to permit the use of new advanced wireless 
technologies by public safety users. This spectrum is part of a 
transfer of Federal Government spectrum to private sector use. The 
Commission initially proposed to allocate the 4.9 GHz band for fixed 
and non-aeronautical mobile services and to auction it to commercial 
users, with no designation of the spectrum for public safety use. In 
response to requests from the public safety community for additional 
spectrum for broadband data communication, the Commission designated 
the 4.9 GHz band for public safety use in February 2002 and adopted 
service rules in April 2003.
    The Commission intended the 4.9 GHz band to accommodate a variety 
of new broadband applications such as high-speed digital technologies, 
broadband mobile operations, fixed ``hotspot'' use, wireless local area 
networks, and temporary fixed links. The 4.9 GHz band rules also foster 
interoperability, by providing a regulatory framework in which 
traditional public safety entities can pursue strategic partnerships 
with others necessary for the completion of their mission.
    Licenses for this spectrum will be granted to public safety 
entities based on a ``jurisdictional'' geographical licensing approach. 
Accordingly, the 4.9 GHz spectrum will be licensed for shared use. 
Under this approach, the Commission will authorize 4.9 GHz licensees to 
operate throughout those geographic areas over which they have 
jurisdiction and will require them to cooperate with all other 4.9 GHz 
licensees in use of the spectrum. In order to increase spectrum use and 
foster interoperability, the Commission will permit licensees to enter 
into sharing agreements or strategic partnerships with both traditional 
public safety entities, including Federal Government agencies, and non-
public safety entities, such as utilities and commercial entities.

              PROMOTION OF PUBLIC SAFETY INTEROPERABILITY

    There are a range of mechanisms that specifically promote 
interoperability. As discussed above, the Commission has used its 
resources to identify additional spectrum. The Commission also has 
provided for innovative licensing methods, created planning methods 
that encourage better coordination, and promoted new technologies.
Regional Planning
    The Commission adopted the regional planning approach to spectrum 
management as an alternative to the traditional first-in-the-door 
approach to spectrum licensing and management in the public safety 
context. Regional planning allows for maximum flexibility of the RPCs 
to meet state and local needs and encourage innovative use of the 
spectrum to accommodate new and as yet unanticipated developments in 
technology and equipment. The Commission has utilized this approach for 
public safety spectrum in the 700 and 800 MHz bands.

Sharing of Radio (Spectrum) Facilities
    In order to promote interoperability, the Commission has rules for 
two types of spectrum sharing. First, the FCC's rules specifically 
provide for shared use of radio stations where licensees may share 
their facilities on a nonprofit, cost shared basis with other public 
safety organizations as end users. In July 2000, the Commission 
expanded this sharing provision. This rule also allows Federal 
government entities to share these facilities as end users. A second 
type of sharing is unique to the 700 MHz public safety spectrum. In 
this spectrum band, state and local public safety licensees may 
construct and operate joint facilities with the Federal government. The 
Commission took this action to encourage partnering of FCC-licensed 
state or local government entities with Federal entities to promote 
interoperability and spectrum efficiency.

Public Safety National Coordination Committee
    The Public Safety National Coordination Committee (NCC) operated as 
a federal advisory committee from 1999 to 2003 and recommended 
technical and operational standards to assure interoperability in the 
700 MHz public safety band. The over 300 members employed a consensus-
based decision-making process to meet its charge. The NCC was guided by 
an eleven-member Steering Committee and used three subcommittees, each 
of them having several working groups to develop its recommendations, 
many of them highly technical. It submitted its final recommendations 
in July 2003.
    The NCC developed recommendations on a technical standard for the 
narrowband voice and data channels to ensure that police, firefighters, 
EMS and other public safety officials using 700 MHz radios can 
communicate with one another instantly on common voice and data 
channels. The same channels are designated for interoperability use 
everywhere in the United States. The Commission adopted the narrowband 
voice standard and also a narrowband data standard in January 2001 as 
the NCC recommended.
    The NCC also developed a recommendation for a wideband data 
standard and forwarded it to the Commission in July, 2003. This 
standard would give public safety agencies a common ``pipeline,'' on 
700 MHz wideband data interoperability channels, with which to 
implement such applications as sending mug shots and fingerprints to 
police vehicles, medical telemetry from EMS units to hospitals, 
blueprints of burning buildings to firefighters and video coverage of 
incidents to the incident commander. The NCC worked with the 
Telecommunications Industries Association--an accredited standards 
developer--to develop interoperability technical standards that are 
open and non-proprietary. The Commission will consider the remaining 
NCC recommendations, including the wideband data standard, in a future 
rulemaking.

Intelligent Transportation Systems Radio Service
    In December 2003, the Commission adopted service and licensing 
rules for the Dedicated Short Range Communications (DSRC) Service in 
the Intelligent Transportation Systems (ITS) Radio Service in the 
5.850-5.925 GHz band. It is envisioned that DSRC would provide the 
critical communications link for ITS, which is key to reducing highway 
fatalities, a high priority for the Department of Transportation. The 
effective and expeditious implementation of DSRC not only benefits 
American consumers by providing solutions to today's transportation 
challenges and allowing life-saving communications. It also provides 
public safety entities with another communications tool that can assist 
them in fulfilling their missions. To ensure interoperability and 
robust safety and public safety communications among DSRC devices 
nationwide, the Commission adopted rules requiring that the ASTM-DSRC 
standard be used. The Commission also adopted licensing and technical 
rules aimed at creating a framework that ensures priority for public 
safety communications, thereby allowing both public safety and non-
public safety use of the 5.9 GHz band. Further, the Commission adopted 
a jurisdictional licensing approach similar to that used for the 4.9 
GHz band.

Cognitive Radios Proceedings
    The Commission is actively exploring the potential of new 
technologies to enhance interoperability and encourage network 
efficiency of public safety systems. One example of such new 
technologies is cognitive radios, which have the capability to change 
their power and/or frequency, sense their environment, know their 
location, and optimize their communication path. This technology holds 
tremendous promise for public safety interoperability by making it 
possible for radios from different public safety systems to operate 
seamlessly at an incident site without prior coordination. The 
Commission has initiated a Cognitive Radio Technologies proceeding to 
examine the enhanced interoperability potential that these even more 
flexible technologies may offer.

                              COORDINATION

    The FCC recognizes that interagency coordination is an essential 
factor in developing effective interoperability. To that end, 
Commission staff routinely confers with the Department of Homeland 
Security's SAFECOM. The FCC and SAFECOM share the common goal of 
improving public safety communications interoperability. We are 
continuing our collaborative efforts to develop a strong working 
relationship, both formally and informally. For example, the FCC is an 
active member of SAFECOM's Advisory Group. In addition, FCC staff has 
met with staff from SAFECOM on several occasions for information 
exchanges and briefings, including, most recently, a March 11, 2004 
presentation to SAFECOM's Executive Committee on matters pending before 
the Commission.
    FCC staff also has attended and/or participated in several events 
hosted by SAFECOM, including its 2003 Summit on Interoperable 
Communications for Public Safety and 2004 Public Safety Communications 
Interoperability Conference. Moreover, DHS Deputy Director David Boyd 
and I continue to work together to further promote and ensure effective 
coordination regarding homeland security and public safety 
communications initiatives. We agree that it is critical that the FCC 
and SAFECOM continue to work cooperatively to achieve our common 
interests of promoting homeland security and interoperability.

                               CONCLUSION

    The FCC is dedicated to marshalling all of its resources and 
expertise in order to ensure that adequate spectrum and technology is 
available for providing interoperability among the nation's public 
safety systems. The Commission continues to work with a wide range of 
stakeholders to foster and promote new policies, rules, regulations and 
technologies related to public safety interoperability. Although some 
of the challenges involved in bringing interoperability to public 
safety systems are outside the scope of the FCC's authority, the 
Commission continues to take a leadership role in trying to resolve 
these challenges.
    Thank you for the opportunity to testify on this important issue 
affecting our homeland security.

    Mr. Upton. Well, thank you much, all four of you. At this 
point, we will go to questions from members of the panel.
    Mr. Grube, I want to say I appreciated very much, your 
testimony, particularly as you referenced that there was no 
hard date on the transition, that you are in limbo. I want to 
say I know that I speak for the chairman, who will be asking 
questions soon, that we do want a hard date, and we do want 
people to know when that date will be, and we intend next month 
to have a hearing, yet another hearing on the transition, 
specifically on the Berlin model and what we can learn from 
their experience.
    Mr. LeGrande, those of us that share DC as a second home, 
for those of us that commute from our states, Mr. Stupak and me 
from Michigan, we appreciate the work that you have done to 
upgrade our city's resources here, and I have a couple of 
questions. You indicated in your testimony that the District 
firefighters had pretty good interoperability, being able to 
communicate both above and below ground with the subway system. 
Do the police have that same capability? What about EMS? And 
what about their ability to communicate with each other in 
those same scenarios?
    Mr. LeGrande. Okay. First, the fire department does have 
seamless communications, meaning they don't have to change 
their radio channels or anything like that when they go from 
above or below ground----
    Mr. Upton. I am actually a member of the Firefighter 
Caucus, and actually there was 1 day, not too many years ago, 
that we actually rode with the department. They didn't have 
that capability then.
    Mr. LeGrande. March of this year, that is when they got it. 
And the police department's upgrade will be completed in July 
of this year.
    Mr. Upton. Will they be able to communicate with each other 
then as well?
    Mr. LeGrande. Yes. We have intra-District--we call it 
intra-District interoperability where our police, fire and EMS 
do have the capability above ground to interoperate now. When 
the police come on in the subway system, they too will be able 
to interoperate as they do now above ground.
    Mr. Upton. Did you experience cultural challenges, disputes 
between the two departments?
    Mr. LeGrande. Yes.
    Mr. Upton. You have not sworn under oath, but we want your 
honest answer.
    Mr. LeGrande. I do have to go home after I leave here.
    Mr. Upton. They are outside the door waiting for you.
    Mr. LeGrande. Yes, absolutely. But, you know, first, when I 
went through the process, honestly, I understood. I paused to 
understand that over 30 years we have developed these systems 
and just understanding based on a finite set of requirements 
and a threat that is usually jurisdictional. So I kind of 
understood that there was a reluctance on some parts to do 
that.
    But I think what I have found in our first responders, not 
only here but also in the various first responders that we have 
met through the Public Safety Spectrum Coalition, that there is 
a commitment on their part, and I think that sometimes the 
difficulty in culture is somewhat--I will just say somewhat 
exaggerated. I know there are cases where it isn't, but some 
cases they are very willing to work together to help this 
communications problem.
    Mr. Upton. Dr. Boyd, you referred to their cultural 
challenges between different departments. What do you see that 
we have to do to overcome some of those challenges?
    And, Mr. Muleta, I would like you to respond to that too.
    Mr. Boyd. I think your insight that the cultural issue is a 
critical piece of interoperability is on the mark. Our 
experience has been that there is an increasing interest on the 
part of all the disciplines in actually communicating with each 
other and jurisdictions in communicating with each other. When 
you get to the details, it is sometimes fairly difficult 
because it begins to threaten existing structures.
    We are finding increasing levels of cooperation, however, 
interdisciplinary as well interjurisdictionally. And one of the 
things that we have discovered as crucial in creating 
interoperability is a governance structure that works from the 
lowest level up. Our experience has been that Federal 
interoperability efforts tend to fail because we try to drive 
them too often the top instead from working from the bottom. 
The same thing happens at the State level. And if you can build 
a really good model that starts with the most local level and 
work up, then you can begin to really resolve interoperability.
    We had a project recently with the State of Virginia, we 
will be producing a report shortly, where we worked with them 
to experiment with exactly that model in the development of a 
statewide plan, which we think is working out really well. And 
we started that with the most rural, smallest jurisdictions in 
the State and then worked our way around. That, we think, is 
the key to fixing the cultural issues.
    Mr. Upton. Mr. Muleta?
    Mr. Muleta. I do think cultural issues exist, but at the 
FCC what we have tried to do is a couple of things. One is we 
are spending a great deal of time with the various public 
safety communities, both at the Federal and the State level, to 
sort of understand the requirements and through the regional 
planning process sort of define a common set of issues and then 
work around those. So I think that has been incredibly helpful.
    Inside the FCC we have also make great strides in making 
sure that there are no walls between various parts of the FCC. 
Chairman Powell has created the Office of Homeland Security and 
there is a Homeland Policy Council as well as within my 
organization I recently reorganized to put in all of the 
elements of public safety issues, including E911, which really 
plays an important role in sort of threat identification and 
management, to be part of our overall look in public safety.
    So between better coordination, a more holistic 
understanding and planning of issues, we are trying to address 
these issues, and I think, unfortunately, the events of the 
last few years where the threat, as you mentioned, have been 
much greater, have helped make all of us realize that we have 
to work together.
    Mr. Upton. Mr. Stupak?
    Mr. Stupak. Thank you, Mr. Chairman, and thanks for holding 
this hearing. I ask that my full statement be made part of the 
record.
    Mr. Upton. Without objection, all members' statements will 
be made part of the record.
    Mr. Stupak. Thank you, Mr. Chairman. We had a hearing 
earlier this month where we discussed basically the same 
challenges, and I would be interested in knowing what has 
happened since then. From what I can see, not much has 
happened. We still have the same challenges, there is no 
funding, we still have the spectrum interference, as we are 
hearing about, we still don't have any real coordination plan 
in meeting this goal.
    It has been almost 3 years since 9/11 and I really don't 
see a lot happening and I am really disappointed we didn't have 
at least some first responders here today to tell us what they 
are hearing on the street, because while we have all these 
offices and new policies, even in a seamless radio connection 
like we have here at DC, if the police officer or the fire 
department individual who's out of his car, out of the station 
cannot respond back and talk to each other, it doesn't do us a 
whole heck of a lot of good.
    So let me ask Mr. LeGrande, in your seamless radio system 
here, can a police officer outside his car talk back to 
stations, thing like that, on his hand-held?
    Mr. LeGrande. Yes.
    Mr. Stupak. All right. Can he talk to a fire department 
official?
    Mr. LeGrande. Yes.
    Mr. Stupak. Okay. Can he talk to the Capitol Police?
    Mr. LeGrande. Yes.
    Mr. Stupak. How about the Park Police?
    Mr. LeGrande. In my testimony, there is a detailed status 
in the attachment 3----
    Mr. Stupak. Sure.
    Mr. LeGrande. [continuing] and there are varying statuses 
of where we are. Now, as far as the technical aspects of it, we 
put in a system that will allow it. Currently, what we are 
doing is working through the standard operations procedures. So 
the technology exists. We are working through the process to--
--
    Mr. Stupak. How many agencies do we have just in DC here 
alone? Don't we have like about 25 to 30 different agencies?
    Mr. LeGrande. Twenty-four in the region.
    Mr. Stupak. Twenty-four. Can we all talk to each other?
    Mr. LeGrande. From the DC perspective and from the DC 
police and fire, we have the capability to talk to each one of 
those. We are working on the finalizing the process. Before you 
can actually go out and implement that capability, you really 
have to go through a process definition and then a very 
detailed training. So we are in the process of doing that. We 
are well on our way.
    Mr. Stupak. So a firefighter out of his wagon there, or 
whatever you want to call it, he is in the building, he can't 
talk to other members from other agencies yet. That is still 
not there.
    Mr. LeGrande. The capability exists, yes, for him to talk 
to other agencies. And if he needs to right now, there is a 
process of even patching him through right now. So I guess what 
I am giving you a status of is that there is an ability for us 
to go--for him to speak----
    Mr. Stupak. I don't want to dispute it as an ability, but 
can they actually do it? Are the actually doing it? I guess 
that is what I am asking. It is almost 3 years now, and we saw 
$100 million in the budget in fiscal year 2003 for a $6 billion 
to $8 billion problem. So we put $100 million in the budget and 
that is been it.
    So I guess what I am trying to get at here today, I have 
heard a lot about abilities and robust planning and all this, 
but I mean this has been going on for a long time.
    I have been associated with law enforcement for 30 years. 
This has been going on for 30 years, and we still don't have 
it. I am not blaming you guys. I am just maybe voicing a little 
frustration, but I just really think that we really have to get 
at this and allow that officer on the street or that emergency 
medical person to talk to whoever they need to talk to and not 
have to worry about having it patched back through dispatch and 
dispatch then patch it back to somebody else.
    Mr. LeGrande. Okay. Well----
    Mr. Stupak. And that is what I am trying to get at.
    Mr. LeGrande. All right. Let me try to specifically answer 
your question. With regards to the fire department, they have 
currently the ability to speak to Washington Airport Authority, 
Fairfax County, Fairfax County Police Department, Alexandria 
Fire Department, Alexandria Police Department, the Arlington 
Police Department and the Arlington Fire Department right now.
    Mr. Stupak. But can they talk to each other? I guess that 
is what I am really asking.
    Mr. LeGrande. Absolutely.
    Mr. Stupak. Okay.
    Mr. LeGrande. I am sorry. Maybe I misunderstood your 
question.
    Mr. Stupak. So the command officer on the street can talk 
to the guy up in the building and tell him what is going on.
    Mr. LeGrande. Yes, sir.
    Mr. Stupak. So we don' t have the thing that happened at 
World Trade Center where those people don't know what is going 
on.
    Mr. LeGrande. There are two questions you are asking----
    Mr. Stupak. Sure.
    Mr. LeGrande. [continuing] and I will just separate the 
two. There are 2 problems on 911: Interoperability and in-
building coverage.
    Mr. Stupak. Correct.
    Mr. LeGrande. Okay. If you are in the District of Columbia, 
that couldn't be more underscored with the marble buildings 
that we created here and we had to build that in our design. We 
put in a new 10-site system which increased the coverage and 
capacity within the District. We also added 63 vehicle repeater 
systems, such that if there is a major incident, we can go and 
deploy these vehicles which will get around building 
penetration radio signal. So, yes, they can absolutely speak.
    Mr. Stupak. So in order to talk to them, they have to have 
that repeater vehicle there.
    Mr. LeGrande. Only if it is a very thick building requiring 
that, and we know where those buildings are. And, by the way, 
those units are some of the first units that are deployed.
    Mr. Stupak. Do you know how much money you have spent on 
this system to try to get it to where it is at today?
    Mr. LeGrande. Approximately $42 million.
    Mr. Stupak. $42 million. And did that come from the Federal 
Government?
    Mr. LeGrande. Yes, sir.
    Mr. Stupak. So of the $100 million we have spent, $42 
million went to DC?
    Mr. LeGrande. I believe that is the case. I can't answer 
that question.
    Mr. Stupak. Just sort of magnifies the need across the 
Nation.
    Mr. LeGrande. Yes, it does, sir.
    Mr. Upton. Mr. Barton?
    Chairman Barton. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I want to thank the panel for being here.
    My first question is fairly elementary, but I want to 
make--all these interoperability channels that we are talking 
about, are these channels that only the first responders and 
law enforcement officials have access to or can anybody with a 
police scanner or monitor listen in on these channels?
    Mr. LeGrande. Yes. These are channels that can be 
monitored.
    Chairman Barton. So anybody that--a terrorist, if they took 
the time to go to Wal-Mart, could get a scanner and hearing 
everything that was going on.
    Mr. LeGrande. We, within the design of our system, at least 
within the District of Columbia, included a significant amount 
of encryption, which would prevent sensitive communications 
from being monitored.
    Chairman Barton. What does that mean in plain language?
    Mr. LeGrande. That we have the ability to make the signal 
between--an encrypted between one person and the other where 
they couldn't be scanned.
    Chairman Barton. They would just hear static.
    Mr. LeGrande. Yes, or nothing at all.
    Chairman Barton. How often is that actually done?
    Mr. LeGrande. Well, right now there hasn't been any, I 
believe--I really can't speak to that how often it has been 
done, but the capability exists and is planned to be used in an 
incident where we have to communicate sensitive information.
    Chairman Barton. Okay. That leads to my next question, and 
I don't know that this would be possible, but given the fact 
that most law enforcement communication equipment can be 
scanned, would it be possible to use some sort of a special 
cell phone or even a regular cell phone that had special 
priority, so that in the case of an emergency you could code a 
certain code into the cell phone and those calls would go 
through first and get priority? Because you cannot or it is 
very difficult to monitor a cell phone call. Is there any 
possibility to use some sort of a system like that?
    Mr. Muleta. If I can address that question, I think, first 
of all, the general question--maybe Mr. Grube can also address 
this--is when you move to digital communications, it is much 
easier to encrypt and therefore protect communications even if 
it is on a public safety radio system. So part of the 
transition that we have all been talking about is moving to a 
uniform standard that has interoperability and enables visual 
communications.
    Part of the transition process is to be able to upgrade, 
you know, uniformly throughout the country all the systems so 
that, you know, they receive the benefits of encryption and 
various things like that. I think the second question you asked 
is is there a way of providing what is known as priority 
access, that is, a program that we have been working with folks 
at DHS on enabling into the cellular system so that doing an 
emergency incident, you know, such as like 9/11 then certain 
users, you know, Federal and public safety users can get 
priority access on the commercial network. So that is a 
program----
    Chairman Barton. That could be done?
    Mr. Muleta. And it has been done for some commercial 
networks. And it is in the process of being rolled out. You 
know, it takes a long time to, sort of, get all the procedures 
right. But we know of at least one national carrier that has 
put it in place, and others are in the process of considering 
it and trying to implement that.
    Mr. Grube. Mr. Chairman, if I could add some comments to 
that, when we take a look at the interoperability, you know, it 
is all about process, planning and platform, platform being 
spectrum standards. When you look at the different levels of 
interoperability from basic just sharing radios to level 6 that 
we talk about, which is a common standard, the common digital 
P25 standard that law enforcement has endorsed adds encryption 
very easily.
    I mean, that was one of the things that the users said they 
wanted when that standard was devised is the ability to easily 
encrypt it to a high level of encryption so that scanners, you 
know, from the department store are not going to receive 
sensitive information. That is available. So as we talk about 
interoperability in, No. 1, joining together the people that 
need to talk to each other when they need to.
    No. 2 is just giving them day-to-day better operation when 
they are just working within their jurisdiction. And that might 
mean transmitting a mode that others can't listen to the 
sensitive information. So as we do move forward with 
interoperability as the agencies do move toward the digital 
standard, P25, they will have that easy ability to add 
encryption so that their messages are not received by others.
    Mr. Boyd. If I can add a couple of cautions, though, that 
we need to remember here, while P25 will allow encryption and 
that is built into the standard for P25, many of the PAP 
systems currently that are available that we are going to have 
to use for some time aren't very robust and have a difficult 
time in handling encryption when you begin to try to gather 
systems that aren't all P25 compatible. That is the first 
issue.
    And Mr. Stupak addressed, I think, in part the issue that 
it is going to take some time for some of these other systems 
that are going to have to be included to make that transition. 
So thinking, planning--I think the point that Mr. Grube makes 
that is really important is prior planning. And that is that 
the organizations on the ground have to think out ahead of time 
both what they need to encrypt and where it is going to go.
    The second piece of it that is important to recall is that 
as we think about things like reducing the size of channels, 
there is an overhead associated with encryption. And so, we 
will have to consider the robustness of the encryption 
algorithms as we make these decisions.
    Chairman Barton. Okay.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    Ms. McCarthy?
    Ms. McCarthy. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman. I think this hearing and the panelists who have 
just testified has been one of the most realistic, down to 
earth presentations on the matter that we have had. And I 
appreciate your pursuing this because I know you know how 
important it is that we address this.
    And we in the Congress have put out these great 
expectations through our earlier legislation, but we have never 
really come to grips with our role in carrying out the things 
that need to change to make it able for you, Chief LeGrande to 
accomplish what you so desire in the testimony you have before 
us today. So this whole broadband transfer issue, I would love 
it if you have some further wisdom to share on that.
    I believe that, based on your testimony and what I have 
learned over the past month and years, is really critical to 
public safety that transfer has to happen. We have had 
hearings, but we have really taken no action as a Congress, as 
a committee to address it. But you lay out in your testimony 
all the reasons why it is necessary for our first responders to 
do their job adequately. And you have convinced me that it is 
now time for the Congress to act.
    And the funds needed for digital equipment so that wherever 
they go they have got the high resolution video, whatever first 
responders need we haven't paid for, we haven't funded. So the 
Congress again has not done what is needed to make sure our 
first responders have the equipment that is interoperable.
    I come from a community, Kansas City, where I have got two 
States kind of like the Virginia, Maryland, and you have got 
the District of Columbia to boot. But I understand the whole 
question for first responders because that dilemma exists in 
the greater Kansas City area, not just Kansas and Missouri and 
the river, but even within communities.
    In my little community of Independence, Missouri, Harry 
Truman's hometown, the police and fire when they were trying to 
help with a dramatic ice storm we had a couple of winters ago 
couldn't communicate on their equipment to go in and help each 
other onsite. They ended up using cell phones. But in a 
terrorist attack, that is not a very good way to go.
    So I guess my comment is I want to thank each and every one 
of you for reminding us today that we have a role to play in 
this in the Congress and we ought to be about it. But if you 
have some further thoughts to share, I would welcome them at 
this time in what little time I have left.
    Mr. LeGrande. I thank you for your comments. We really 
appreciate that. I just want to clarify my title. I am not a 
first responder. I am am a part of the technology organization, 
although I do appreciate the compliment.
    Broadband is clearly the next thing for, not only first 
responders, but it is the Nation. In meeting with, not only 
within the District of Columbia, our own MPD and fire, they 
have provided us with very stringent requirements on what they 
would like to be able to accomplish in order to meet the threat 
that exists. This system that we have already started to deploy 
on a pilot basis we already have reached out to our Federal 
partners to create interoperability with them, the U.S. Park 
Police and also the U.S. Capitol Police.
    In fact, we can demonstrate within our current 
configuration a video feed from a U.S. Park Police helicopter 
from that helicopter that feed going into the FBI over to the 
MPD headquarters and out through our wireless network. We can 
show you where a first responder in the Capitol Hill region 
would be able to receive that feed via an Ipac computer, which 
is a small pocket computer or a laptop computer that, of 
course, is ruggedized.
    This type of increase in capability for our first 
responders is exactly what they need. We have a threat that is 
multiplying exponentially, and we have to increase our ability 
to survey or to provide surveillance systems so that our first 
responders aren't completely tapped. They still have a domestic 
responsibility in addition to the new international threat that 
is been added to us. So these types of increases in technology 
will really help them to address that need. So we welcome the 
opportunity to present this much further to this committee, 
both in the legislation that is already included in our 
testimony, but also in demonstrations that we are capable of 
performing now.
    Ms. McCarthy. Thank you. Would anyone else like to comment?
    Mr. Grube. Yes, I would.
    Ms. McCarthy. Thank you, Mr. Grube.
    Mr. Grube. Thank you for your kind words. And it is a 
pleasure to be here. And I wanted to follow-up on the spectrum 
issue and tie that back to the applications that the public 
safety people seek. My team at Motorola has been doing trials 
for several years of what--to be compared to the last 65 years 
of two-way voice communications for public safety as 
breakthrough, revolutionary step change.
    And back in 1997 when together, you know, we said let's 
target 100 megahertz, you know, for the public safety community 
and started making improvements toward that and most recently 
with the 4.9 gigahertz band, at that time, of course, pre-9/11, 
we didn't really understand the total picture yet.
    And I think, you know, as leadership operations here in the 
district and other agencies that we have trialed broadband 
technology with, we have come to learn that not only will 
technology like this make a difference when these special 
events happen, but they can use it day-to-day in their 
operation to be safer, to be more efficient.
    Some of the sound bytes that I have received firsthand from 
some of the public safety people trialing this technology is, 
``don't take it away. I feel safer when that broadband's 
streaming video technology is in my squad car to send an image 
of that traffic stop when I am out in the middle of nowhere 
sending that back to the dispatch center or to my partners so 
they can watch my back.'' I mean, these are the kind of words 
that they are telling us.
    So we have learned, I guess, just recently in the last 
couple of years and since post-9/11 that, in addition to local 
broadband spectrum allocations of 4.9 gigahertz in addition to 
the high-speed data for Internet browsing, some simple video, 
limited capacity at 700 in the 24 megahertz there is a 
compelling need--and this is what the system in the district 
here is showing everyone for what I will call--and I will use 
my words very carefully--wide area broadband spectrum.
    The 700 megahertz band is absolutely a sweet spot in terms 
of economics to bring that type of technology which is now 
coming into the industry, not only, you know, from companies 
like Motorola, but the entire industry.
    A few weeks ago, the FCC had a very nice get-together on 
the wireless broadband topic. I served as a panelist. And there 
certainly was a common thread that the industry was saying. And 
this is not only for public safety. And I was there talking 
about that in addition to the consumer world.
    But they are saying there is this rich spectrum here. There 
is new technology. We could deploy broadband, you know, for the 
industry. And we could deploy broadband for public safety. So 
the key message is the technology is here, the needs are now 
realized. And I think this additional spectrum that the 
district is talking about at 700 megahertz would be a wonderful 
thing to really go after and help enable as part of the 
platform for the public safety people.
    Ms. McCarthy. Thank you very much.
    Thank you, Mr. Chairman. I am glad I waived my opening 
remarks.
    Mr. Upton. You are lucky. I might just say before I yield 
to Mr. Bass that there are a number of us from this panel that 
actually witnessed that video transfer in Chicago. I think Mr. 
Engel was with us that day. I think Mr. Bass and Mr. Terry were 
there that day. And it is nice to hear as we listen to your 
testimony, Mr. LeGrande, that it is actually now that we are 
seeing it come into the field versus just a demonstration.
    Mr. LeGrande. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bass?
    Mr. Bass. Thank you, Mr. Chairman. I was rather surprised 
to hear that the system that you installed in the district cost 
$42 million. I am not saying it is high or low, but it is 
certainly a lot of money. And wondering about the question as 
to whether or not as we plan this interoperability and these 
new communications systems that we really have the best, most 
modern, diverse systems that we can possibly get.
    I recall when I was on the Transportation Committee the FAA 
was authorized to spend an enormous amount of money on a new 
radar system which ended up being obsolete before it even 
arrived at the FAA centers, as I recall. And it cost many 
billions of dollars.
    In the course of examining these systems, are you looking--
let me start again. We had a hearing the other day in this 
committee in which we looked at the most unbelievably 
interesting new concepts for broadband communication and so 
forth.
    And it has been my experience when you get into various 
sectors of government, the police or the fire departments or, 
you know, law enforcement, FAA, other agencies, they tend not 
to look outside of their own existing technologies, how they 
have always communicated, two-way radios with a microphone over 
your shoulder and so forth.
    The fact is that a cell phone with a little television 
screen on it is probably not a bad way to communicate. Or it 
might be used as a basis upon which the agency--in this case, 
homeland security--looks at entirely new mechanisms and 
technologies outside of traditional radio communication, which 
provide by their very definition interoperability maybe a lot 
cheaper and with the ability to implement before digital 
transition occurs.
    I am just curious if anybody in the panel has thought about 
this or, first of all, understands my question, but second, has 
thought about or has observations on whether the decisionmakers 
here are really looking at the big picture and trying to come 
up with a mission or a plan that doesn't get obsolete before--
isn't obsolete before it is implemented.
    Mr. LeGrande. Mr. Bass, first I would like to begin by 
agreeing with you that, yes, we should evaluate in parallel to 
addressing the urgent need for our first responders today, in 
parallel to that effort, you really evaluate emerging 
technologies and possibilities in the future. Currently I don't 
believe there exists a commercially available solution that we 
could quickly move to because the threat is so real and our 
needs to tie our first responders together is so important 
right now and time is of the essence.
    As Mr. Stupak mentioned earlier, we didn't have the 
opportunity, nor would I suggest that other public safety 
organizations had the opportunity to move that quickly to the 
other solutions that exist. A maturity needs to occur in moving 
to those solutions. And that is why we are piloting our 
broadband network within the district first.
    We are going to run that pilot over a year as an 
experimental license that was already approved by the FCC for 
broadband communications. We are going to test security, 
reliability, maintainability. And those are some of the just 
varied components that we have to go into that maturity model 
before you can actually deploy these networks operationally.
    The last thing we want to do is move quickly to either a 
commercially available solution or build our own solution based 
on commercial technologies without testing it out thoroughly 
because then we would run into a much larger problem. And so, 
what my suggestion to you, sir, is that first you have to start 
solving your short-term problem but in parallel work on the 
long-term solution that could take you to another place.
    Mr. Boyd. I would like to add some----
    Mr. Bass. Yes, before others respond, can I just add one 
other part to the question? Is there communication between 
homeland security and the military so that you guys know how 
the communication systems are working now with soldiers in 
Iraq, for example, and how well the interoperability issues 
that exist there and so on?
    Mr. Boyd. In fact, that opens up an interesting question 
that I think you need to address in understanding the field. 
Now the first one is that I am retired from the United States 
Army. We are, in fact, working directly now with the Department 
of Defense with Assistant Secretary of Defense Paul McHale's 
office. We have worked with the National Guard, and the 
National Guard participates as a part of our executive council. 
And I have gone to address the Defense Science Board on a 
number of occasions.
    There are a number of things you have to remember. And the 
defense model is an interesting one to remember. The Defense 
Department first became interested in becoming interoperable 
some 10 years before I was commissioned a second lieutenant in 
the United States Army. It did work diligently at that. And 
today, some 12 years after I retired from the Army, they are 
almost interoperable. That is four services in a single 
department that is funded essentially by a single committee.
    In this community, we are looking at 50,000 independent 
agencies who are funded by the city councils, county 
commissions, by the states and others. These are organizations 
which, for the most part, have communication systems which have 
a life cycle that is on the order of 30 or 40 years. Within the 
technology life cycle, it is 18 to 24 months.
    So part of the difficulty we have is how do you make sure 
that you don't leave behind the community that can't afford to 
upgrade its system but needs interoperability now, too. And so, 
how do you bring these together?
    It is, I think, tempting to imagine that there is a single 
standard and a single technology that is going to solve the 
problem. There is not. The reality is that we will always have 
multiple systems over a period of time, even when we arrive at 
fairly common standards because we don't want to stop the 
innovation of the technology.
    And so, you may have newer technologies developing that 
will always require us to think ahead about how we are going to 
tie them together. Which is why the approach--we took a batch 
of systems--you need to think about routine communications and 
emergency communications. The things that you use routinely 
need to be the same things you are going to use in an 
emergency, otherwise they not only won't know how to use them--
the military operates on the same basis--they may not even know 
where they are stored.
    So you need to use the same kinds of systems in both cases. 
And you need to understand which parts of your routine 
communications you can off-load onto, for example, the 
commercial structures. In fact, one of the things we are 
working with local law enforcement with is to help them to 
understand where they can build in as part of their plan some 
of the commercial infrastructure.
    But it is important to understand that the cellular and the 
public switch telephone network, that is the wired network, are 
built only for a capacity that is about 10 percent over the 
normal capacity, which is why during rush hour you frequently 
can't get a call on a cell phone. And in an emergency, almost 
by definition, those systems are overwhelmed almost 
immediately.
    So there has to be an emergency foundation that the public 
safety community can fall back on. And we have to understand 
that while we don't want to take 45 years as Defense did to get 
to interoperability, we also are not going to get there in 1 or 
2 years.
    Mr. Bass. I yield back, Mr. Chairman.
    Mr. Muleta. Mr. Engel?
    Mr. Upton. Do you want to respond to that question?
    Mr. Muleta. Yes, I think it is an important issue, and I 
just wanted to give you a couple of points that I think are 
very important. One is the kind of requirements development 
that DHS through SAFECOM is doing right now will really help. A 
lot of times the tradition has been in the public safety 
environment that you, sort of, take the equipment as is, that, 
sort of, technology is leading as opposed to the requirements 
leading. So I think that is a very important step in terms of 
the cultural change that is going on.
    In terms of what the FCC has been doing, in various 
proceedings that we have had regarding public safety radios, we 
have tried to incorporate standards-based approach into the use 
of the spectrum. So, for example, the 700 megahertz, the 
process that we used there included regional planning, and it 
also included the adoption of project 25 into what public 
safety can use there. In terms of the intelligent transport 
system, which is something we work cooperatively on with FAA 
which is about vehicular accident effectively systems that are 
just put on a terrestrial basis that feed information or allow 
communications for DOT and DOT-sponsored organizations. We 
again used various standards-based technology to be adopted in 
that order.
    So as, you know, car makers and as people are developing 
radio systems to use that, they are, you know, effectively 
using off-the-shelf components. And they are riding the curve, 
the technology curve and the cost curve. But the commercial 
world experiences a lot faster than the public safety has 
traditionally.
    In 4.9 gigahertz band, which is 50 megahertz dedicated to 
public safety, again, we used basically equipment, you know, 
sort of, standards that are used in the 5.8 gigahertz, which is 
where a new allocation of Y5 is being placed. And so, other 
things that we are doing are cognitive radios, effectively 
helping the development of technology that allows radios to, 
sort of, flexibly move from one band to another.
    And so, in the case of an emergency if everything is tapped 
out in spectrum a, you can move to spectrum band b. So the FCC 
has a proceeding on this. So a lot of what we are working on is 
trying to get to standards-based solutions and embed them into 
the regularity model that we are using so that people won't be 
caught--you know, actual operators like Mr. LeGrande won't be 
caught short as technology moves or the cost curve declines 
significantly in the commercial world.
    Mr. Grube. Mr. Chairman, I have another comment.
    Mr. Upton. Just very quickly. I stopped the clock.
    Mr. Grube. Congressman Bass, Terry and Chairman Upton, 
thanks for looking at the high-speed data pilot that we had in 
Chicago. And I think that, you know, one of the take-aways when 
public safety looks at deploying their own private networks is 
your original question does come up a lot. And that is can we 
use a consumer-based carrier network for the first responders. 
And they do use them from time to time.
    But if you look at the economics of a carrier system, it is 
driven by putting just the coverage that you need where the 
highest population of people is. And it may not be the third 
sub-basement where the firefighter has to go or the police 
officer has to go. It may not be the far reaches of the county 
where the State patrol officer has to go. So coverage is always 
a key thing. And that is one of the reasons the private 
networks are here.
    And I think that--and one of your other questions dealt 
with the technology that is here and questioning is this here 
to stay. I think the basic two-way voice--if you talk to the 
people who carry guns and hoses, their primary need is to push 
the button and to be instantly heard by someone at the end of 
that radio communications path. Others around them that are 
supporting the scene or supporting, directing what they do, 
those are the ones that also need that capability plus all of 
the richness that we have talked about in terms of video and 
Internet access and those things.
    And again, if we take a look at the carrier networks, we 
learned a big lesson during the major blackout last year in the 
Northeast. Half of--about half of the carrier cellular sites 
were down. And that is because economics just don't motivate 
the carriers, you know, to design around that. Whereas if you 
look at the State of Michigan, their system was fully 
operational. Everything was taken into account for, not only 
capacity spikes, but also in terms of power outages.
    Mr. Upton. Thank you.
    Mr. Engel?
    Mr. Engel. Well, thank you very much, Mr. Chairman, for 
calling this hearing. This proves time and time again why this 
is a great subcommittee and why we are always on the cutting 
edge of things that are really on people's minds.
    I know Mr. Stupak spoke about September 11 and the problem 
in my home State of New York about the policemen and firemen 
talking to each other. But, you know, just Monday, a couple of 
days ago, I was meeting with police, fire and EMS officials in 
Ramapo in Rockland County which is a northern suburb of the 
city of New York in my district. And we were talking about rail 
security.
    And the fire inspector there said to me, ``You know, our 
biggest problem is if we have an emergency, the first cop and 
first firefighter on the scene can't talk to each other on 
their radios.'' So this is obviously something that we are 
still hearing from all across the country.
    I wanted to mention before I asked my questions that I have 
worked on a bill, a bipartisan bill with my colleagues on this 
committee, Mr. Stupak and Mr. Fossella, to provide the funding 
that our local first responders need. It is called the Public 
Safety and Interoperability Implementation Act, which is H.R. 
3370. And what it does is it would reserve a portion of future 
spectrum auction revenues and place them in a trust fund for 
helping State and localities in paying for these new systems.
    So, Dr. Boyd, when you mentioned that smaller communities, 
smaller areas and towns really don't have the money, we would 
envision that if this bill were to be passed and implemented 
that that would be a way of providing those kinds of funds.
    Mr. Chairman, I want to ask unanimous consent. I have with 
me a letter from the county executive of Rockland County, Scott 
Vanderhoef, requesting assistance in obtaining Federal funds 
for the complete overhaul and upgrade of emergency 
communications in Rockland. Even though he was my opponent in 
2002, I will certainly be helping him because he is right. And 
I would just ask unanimous consent to enter into the record his 
letter as an example of what our localities are facing when 
trying to afford an interoperable system. I will ask unanimous 
consent for that.
    Mr. Upton. Without objection.
    [The letter follows:]

                             County of Rockland    
                         Office of the County Executive    
                                   New City, New York 10956
                                                       June 3, 2004
The Honorable Eliot L. Engel
The United States House of Representatives
2264 Rayburn House Office Building
Washington, DC 20515-3217
    Dear Congressman Engel: This letter is to request your assistance 
with a matter of great importance to the citizens of Rockland County.
    Since the tragic events of September 11, 2001, more than $23 
billion have been appropriated to help States, municipalities, and 
first responders improve preparedness for future acts of terrorism or 
other emergencies. And since March 2003 the Department of Homeland 
Security has specifically helped first responders prevent, prepare for, 
and respond to acts of terrorism.
    As you know, Rockland County is located a mere 15 miles north of 
the George Washington Bridge. Along with its close proximity to New 
York City, Rockland lies within the response area for the Indian Point 
Nuclear Power Center. Interstate highways, rail traffic and Hudson 
River access pose certain challenges in protecting our most vulnerable 
and valuable assets.
    I thank you for introducing the Public Safety Interoperability 
Implementation Act in order to focus the resources of the federal 
government on those areas that are most vulnerable. Homeland Security 
Interoperable funds could help facilitate the implementation of Phase 
II of Rockland County's Public Safety System Communications Project. 
This project is designed to allow our fire, police and ambulance 
responders to effectively communicate with each other even under the 
most challenging of circumstances.
    I am sure you can appreciate that this project should be considered 
one of the highest of priorities among all government levels. 
Terrorists are not arbitrary in their selection of targets and some of 
the region's most vulnerable sites and communities lie within the 17th 
Congressional District.
    Therefore, I present the attached project outline in hopes of 
accessing federal funds for this invaluable project.
    Thank you for your consideration and continued advocacy on behalf 
of the citizens of Rockland County.
            Very truly yours,
                                        C. Scott Vanderhoef
                                                   County Executive
[GRAPHIC] [TIFF OMITTED] T5444.001

    Mr. Engel. Thank you.
    Mr. LeGrande, I appreciate you have put so much time 
working into the engineering design of the DC system. Obviously 
we are all concerned. We work here. And DC faces many unique 
problems caused by overlapping agencies and jurisdictions.
    And I applaud you for making interoperability with the 
Metro subway system a priority. I am wondering, though, how 
much training is going on so that Metro workers, police, fire 
and EMS, know what is going on. How many hours of training does 
a Metro worker receive? Do they receive training for this sort 
of thing?
    Mr. LeGrande. Well, the system that we put in for our fire 
department doesn't require any additional training to use it in 
the Metro system. It is seamless, and in just the same way they 
use it above ground, they use it below ground and while riding 
on the trains. So no additional training is needed there.
    Mr. Engel. What about the Metro worker?
    Mr. LeGrande. When you speak of the Metro workers, they 
have their own communications systems and their own set of 
training that is gone on. Their systems have been in place for 
quite some time, so I don't think there was any additional 
training needed for them. ENGEL: All right. Now you mentioned 
that your system has interoperability capabilities with the 
Capitol Police. Am I correct? You said that they did.
    Mr. LeGrande. For the U.S. Capitol Police, who I said is we 
put the capabilities in, yes, to have interoperability with 
them. And we need to work out those standard operating 
procedures with them to facilitate that communication.
    Mr. Engel. Okay. Obviously Capitol South Metro is adjacent 
to the Cannon Building, and our police, the Capitol Police, 
would respond to an incident there. Has there ever been a drill 
held at that location?
    Mr. LeGrande. None that I am aware of. I am here 
representing the technology that we put in. The actual 
operations of the police--that would really have to come from 
the MPD. I can find out the answer to that question for you, 
though.
    Mr. Engel. Okay. And would you know how often drills are 
held?
    Mr. LeGrande. No.
    Mr. Engel. Do you have any idea if that includes the Metro 
Police, fire and EMS?
    Mr. LeGrande. I wouldn't know the answer to those 
questions, no, sir.
    Mr. Engel. Okay. If you could find that out for me, I would 
appreciate it.
    Mr. LeGrande. Okay.
    Mr. Engel. Okay. Thank you.
    Mr. Grube, I want to thank you for the information. It was 
very extensive. There have been some efforts to immediately 
move to TV stations operating on channel 63, 64, 68 and 69 off. 
And I am wondering if you could give me some information about 
that.
    Mr. Grube. Well, one of the--there are several methods. And 
one is to simply relocate the channels, the TV stations that 
are in those channels down to a lower channel but still 
transmit in the analogue mode. That is one way. And some 
stations have applied for waivers to do that, I understand.
    Another way is to have them move in the move to the digital 
mode when they move out of that band and to provide the 3 
percent of the households, according to the independent 
analysis that we did, with digital to analogue converter boxes 
so that they could still--that those consumers could still 
continue to use the analogue TV equipment that they have today. 
Those are a couple of the methods.
    Mr. Engel. Well, we have a problem in New York. I don't 
know if you are aware that there are adjacent TV channels that 
are in use. Would those TV signals cause interference? And 
would we have to shut down those adjacent channels as well?
    Mr. Grube. They can't--yes, they should be included in the 
analysis because, you know, a 5 megawatt transmitter spectrally 
next to, you know, a poor, little homeland security radio could 
be an issue. So I think that has been included in the analysis 
that we have done. And it is very important to consider those 
stations as well.
    Mr. Engel. Because, for instance, in the New York City 
metropolitan area, channel 67 is Univision on Long Island. And 
channel 68 is Univision in Newark, New Jersey. And both serve 
the New York City area. And during an emergency, obviously 
Spanish-speaking people turn to Spanish language news. Thus 
there is a competing safety concern as well. So I am happy that 
it is included as well.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Fossella?
    Mr. Fossella. Thank you, Mr. Chairman, gentlemen.
    For Mr. Muleta, thank you for your testimony. Currently FCC 
is looking at giving public safety additional spectrum and 
other band widths. Is that correct?
    Mr. Muleta. Yes.
    Mr. Fossella. Some have suggested that additional spectrum 
at the 700 megahertz band would be more useful for offering 
interoperable broadband services. Do you agree with this?
    Mr. Muleta. Seven hundred megahertz has, as we have talked 
about, good propagation characteristics. And there is already 
24 megahertz that is been allocated at 700 megahertz for use by 
public safety.
    Mr. Fossella. So in light of the ongoing discussion, do you 
think having a larger block of spectrum in that single band 
width to allow for more efficient use of spectrum makes the 
interoperability easier to achieve than what is currently 
proposed? Or as stated otherwise, is a single block of spectrum 
better than the fragmentation of spectrum and other bandwidths?
    Mr. Muleta. Well, I think there is already an allocation of 
the 700 megahertz. There is 24 megahertz that is been 
allocated. There has been a national plan put in place, a 
unified standard for the technology in project 25.
    I think the issues that, you know--the solution to the 
problem that we have today on interoperability have more to do 
with planning, coordination, communication and, you know, sort 
of, actual deploying them, getting the dollars out to get the 
systems up and also obviously the fact that that spectrum is 
encumbered with the broadcasters.
    So additional spectrum--you know, additional blocks of 
spectrum, I think, would always be useful in any communications 
context, whether public safety or any other application. I 
don't think the current--that, you know, today an additional 
block will get us, sort of, the uniform interoperability that 
we are all looking for because I think those require 
communication coordination and planning more so than additional 
spectrum, from my perspective.
    Mr. Fossella. Okay. Thank you.
    Mr. LeGrande. Could I add a response to that question, sir? 
From our perspective, the 24, while it has been allocated to 
public safety, the current configuration of the 24 does not 
allow for wide area broadband use. So on the issue of 
interoperability, I don't disagree. But on the issue of 
deploying wireless broadband technologies in the current 24 
megahertz configuration, we cannot do that over a wide area.
    Mr. Fossella. Mr. Muleta, in light of that, do you have any 
comment?
    Mr. Muleta. Yes, I think there have been several different 
requests that have come through for additional blocks of 
spectrum. I think by statute Congress has--you know, 24 
megahertz was allotted to public safety. The additional 
spectrum was for commercial uses for auction at various times. 
And I think there are, you know, countervailing tradeoffs.
    I think again the key is to get interoperability into the 
hands of the folks today as quickly as possible. As Mr. 
LeGrande so aptly put it, there needs to be interoperability 
then interoperability and laying an additional amount of 
spectrum, although it is useful as part of our planning 
process, we need to--I think it needs to go through the whole 
process of what the statute has asked FCC to do, which is to 
design it for--this additional spectrum for commercial uses.
    Mr. LeGrande. I would just disagree with the 
characterization that it will be helpful. It is needed for 
public safety to have wireless broadband technologies available 
in order to address the threat that exists to our country. So I 
totally agree that the 24 megahertz in the current 
interoperability plans and the efforts that we are all making 
here. But it is important that we also move right now to 
providing that ability for our first responders.
    Mr. Grube. Could I add a comment? You know, I think the 
original Biswick Report did not contemplate at that time wide 
area broadband wireless. And what we have been discovering in 
the last few years is that there is a real need for this, one 
that we didn't see before so that when we talk about the 700 
megahertz band, presumably we are going to fix this, we are 
going to clear it. That is a voice interoperability, the basic 
data, not the wide area broadband. And its proximity to the 800 
megahertz band in total makes a very nice economical way for 
the industry, like Motorola, to provide product across those 2 
adjacent bands.
    But in addition to that, to solve the needs that we have 
been discovering together about broadband, we feel strongly 
that an additional allocation is required. And since public 
safety is already bracketed by the 24 megahertz below and the 
800 megahertz above, it makes a lot of sense to consider public 
safety and Federal broadband, wide area broadband 
interoperability in this 30 megahertz that we are talking 
about.
    And I think that the economics will help determine this as 
well because from a propagation point of view, when you take a 
look at the cost to go build a 700 megahertz wide area 
broadband system for a relatively few number of users--and I 
say that about public safety because if you look at the user 
density per square mile for public safety, it is a different 
equation, probably by a factor of 100 relative to the consumer 
world.
    And so, if you are a carrier and you are contemplating the 
bands, you are probably already talking about smaller cells 
that spectrum such as the 2.1 gigahertz band or others up in 
that area would be very attractive in terms of spectrum that 
they would like and pay money through an auction. So I think 
that we have to together look at those options for the carriers 
that want to create a business there and really take as a 
priority the sweet spot, if you will, at 700 megahertz for 
public safety.
    Mr. Boyd. Just as a quick note, the public safety community 
will tell you that right now they have a lot of priorities, but 
two fundamental priorities. One of them is the elimination of 
the interference problem on 800 megahertz. And the other is 
additional spectrum. And they will tell you their priority 
concern, while they are interested in all kinds of 
communications, is always going to be voice.
    Mr. Upton. Mr. Stupak has a couple of additional questions.
    Mr. Stupak. Thank you, Mr. Chairman.
    If the priority and if their basic system is always voice, 
then what is standing in the way of just going and getting 
voice out there so they can talk to each other? I mean, they 
all have voice now as a basic component. They are on different 
frequencies. And we have the technology that already exists and 
has been around for a long time to allow different frequencies 
to speak to each other. So why don't we as a first step, almost 
3 years after 9/11, just do that part so they can just talk to 
each other? Can that be done?
    Mr. Boyd. A number of efforts were already being done to do 
that. In fact, most of the major urban areas, even beyond the 
U.S. areas that are defined by ODP have, in fact, patch 
technologies and patch devices in place. But even these require 
some time to put in place because it is not just a technical 
problem. Part of it is a technical issue and, of course, the 
costs associated with training and planning that goes with it. 
But the other part of it is very much a cultural issue.
    In 1993 when I first put together an interoperability 
initiative in this case, we wanted to try to allow all of the 
agencies, Federal, State and local in San Diego County to 
communicate with each other. And we used a fairly primitive 
switching technology, nothing as good as exists right now.
    Mr. Stupak. Sure. Right.
    Mr. Boyd. It took us 30 days to implement the technology 
with us paying for it. It took 2 years to get all the agencies 
to agree to play a role.
    Mr. Stupak. But don't you think that is all changed since 
9/11? I mean, not all changed, but has really lessened since 9/
11 and the different needs and different things that we are 
asking them to do from the Federal Government from a terrorism 
point of view?
    Mr. Boyd. I think it is much easier to get people on the 
same sheet of music.
    Mr. Stupak. Sure.
    Mr. Boyd. But you still have to take the time to do that.
    Mr. Stupak. Sure.
    Mr. Boyd. And that means that you need to set up a process 
that brings in--the way we talk about it is that you need to 
set up a process that lets the local guy have a serious 
incentive, that makes him want to be part of this. There is a 
tendency to try to force things from the top down, whether it 
is from the Federal level or the State level.
    Mr. Stupak. Right, I agree.
    Mr. Boyd. And you cannot do that in this community.
    Mr. Stupak. But the incentive for doing it is just basic 
safety. It is basic safety. It is more and more municipalities 
are going to one-person cars which they did not do before. And 
I think we can see it from a number of examples. Going back to 
San Diego there, if you could do the technology in 30 days, 
what was the cost then?
    Mr. Boyd. Well, at that time, we used an existing Navy 
switch panel to do that.
    Mr. Stupak. Right.
    Mr. Boyd. And it essentially was a manual patch, and 
operators sat there and tied them together.
    Mr. Stupak. Right.
    Mr. Boyd. It is not like they put them now. I would say we 
probably invested to do that in that county just to do the 
technology about a half a million dollars. That did not 
support--understand it was--it took more to do that.
    Mr. Stupak. Right. Yes.
    Mr. Boyd. But that doesn't support the continuing training 
and the manning of the system and so on.
    Mr. Stupak. Right. But now with a lot of jurisdictions 
going to 911 and emergency 911, E-911, it is a lot easier to do 
this now, to get the coordination and jurisdictions down under 
at least one call center.
    Mr. Muleta. If I could answer that question----
    Mr. Stupak. Yes, go ahead.
    Mr. Muleta. Well, I think most jurisdictions, public safety 
answering points which deal with E-911 are different than the 
public safety radio systems which are usually allocated. You 
know, the public safety answering point is----
    Mr. Stupak. Sure, but doesn't the 911 also not only answer 
but also dispatches?
    Mr. Muleta. It dispatches, but it goes through, I believe--
let's say it dispatches directly to the metropolitan police 
department which then makes a decision to go to. So there isn't 
a direct link to the officer on the ground. It has actually to 
go through----
    Mr. Stupak. Well, we in the rural areas still do it 
correctly. We don't have a metropolitan to go through. So we 
are usually receiving and directing right back out to the cars. 
And that is why interoperability is so important when you are 
dispatching to a State, local or county sheriff. I mean, it is 
all got to be the same.
    Mr. Boyd, if I can go back, of the $4.4 or so in Department 
of Homeland Security grants that have gone out the last 2 
years, do you know how much has been dedicated to 
interoperability?
    Mr. Boyd. That is a really tough question. And I can 
explain why. We know in the case of the interoperability grants 
in COPS and FEMA last year, about $75 million in each agency. 
We know that that was interoperability money.
    Mr. Stupak. Right.
    Mr. Boyd. And, in fact, we participated in helping to set 
up the selection process to do that. And we know that the $85 
million in the COPS Office this year is interoperability. Most 
of the rest of the money, however, is block grant money which 
goes to the states.
    Mr. Stupak. Correct. Correct.
    Mr. Boyd. And as you know, once it gets to the State, the 
State then can provide it to localities for any of a series of 
authorized uses. The states aren't obligated to report back on 
how much of that is actually used for interoperability, for 
example.
    Mr. Stupak. Okay. Yes, last week I was going to do an 
amendment on the House floor, and Chairman Rogers thought that 
you might be able to come up with those figures because I 
didn't want to waste the money. I would rather see the money go 
into the interoperability----
    Mr. Boyd. In fact, we may be able to help you. I am not 
sure about----
    Mr. Stupak. But even in Michigan--we called Michigan. They 
have received about $120 million, and they could not tell me 
how much was interoperability. Hopefully there will be some way 
we can focus on this in the next few months because we are 
looking at a huge price tag. And we talk a lot about Federal 
Government having to take leadership. And we certainly do have 
to put the money forward for this. So we would be interested to 
see what has gone in there and how much it is going to take.
    Mr. Boyd. Yes, one of the pieces that may help you with 
that, that we hope will help you with that because we think it 
is crucial to what we are doing----
    Mr. Stupak. Sure.
    Mr. Boyd. [continuing] is a baseline survey which we are 
initiating right now. Now this survey will take probably about 
a year to complete. But we want to try to get a picture of what 
the level of interoperability is. And you can't go to any place 
now. You can't go to a data base.
    Mr. Stupak. Right.
    Mr. Boyd. You can't go to a source and say, ``What is the 
level.'' So we want to do a really well-designed survey to get 
a picture of what that baseline is because we need to bounce 
that against the statement of requirements we have just 
produced, figure out what the gap is and then we can give 
people realistic estimates of what it is going to take to move 
to interoperability.
    Mr. Stupak. Yes, and you might want to take a look at 
Michigan. They have been one of the leaders in it. But still, 
even with your new system--they just did it statewide to the 
State police. They still have 1,000 public safety agencies in 
the State still not tied into it and still don't have the 
interoperability. So that is a good place to start because they 
just completed theirs last year.
    Mr. Boyd. Yes, sir. I spent some time working with Mike 
Robinson. I am familiar with the system.
    Mr. Stupak. Good.
    Mr. Upton. Thank you. I would just comment on the fact that 
was raised about E-911. I had the occasion to make an E-911 
call the other day at 6:30 in the morning. And the system here 
works. I was on the bridge coming from Virginia to DC, saw a 
terrible accident and called in. I was immediately patched to 
PSAP somewhere in DC and identified that it was Arlington 
County. Or the accident actually was. And they responded. So 
the system is working.
    And this is a very important subject, that one as well as 
interoperability. I am pleased to see that things seem to be in 
place and moving forward in the right direction. But obviously 
the rest of the country, whether it be in Michigan or other 
places are on the ball as well.
    And just as I talk about E-911, I lament the fact that this 
subcommittee and committee in Congress, thanks to bipartisan 
help in a major way passed a very good E-911 bill. And it is 
still languishing more than a year later in the other body, as 
they like to say. Some of us like to say the lower body, but we 
won't say that.
    But again, I appreciate all of your work. This is a very 
important topic, not only for us, but for the country. And we 
appreciate your leadership. We look forward to working with you 
as we move the ball down the field.
    This hearing is now adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
